<html>
<title> - WATER SUPPLY VULNERABILITIES IN THE SACRAMENTO/SAN JOAQUIN RIVER SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
   WATER SUPPLY VULNERABILITIES IN THE SACRAMENTO/SAN JOAQUIN RIVER 
                                SYSTEM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                       Thursday, October 20, 2005

                               __________

                           Serial No. 109-32

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-348                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

               GEORGE P. RADANOVICH, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

Ken Calvert, California              Raul M. Grijalva, Arizona
Barbara Cubin, Wyoming               Jim Costa, California
Greg Walden, Oregon                  George Miller, California
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Stevan Pearce, New Mexico            Vacancy
Cathy McMorris, Washington           Vacancy
Louie Gohmert, Texas                 Nick J. Rahall II, West Virginia, 
Vacancy                                  ex officio
Richard W. Pombo, California, ex 
    officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, October 20, 2005.......................     1

Statement of Members:
    Cardoza, Hon. Dennis, a Representative in Congress from the 
      State of California........................................     5
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California, Prepared statement of.................    76
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     4
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     3
    Pombo, Hon. Richard W., a Representative in Congress from the 
      State of California........................................     4
        Prepared statement of....................................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Chrisman, Hon. Mike, Secretary for Resources, California 
      Resources Agency, Sacramento, California...................    14
        Prepared statement of....................................    16
    Guy, David J., Executive Director, Northern California Water 
      Association, Sacramento, California........................    26
        Prepared statement of....................................    28
    Majors, Dennis G., Program Manager, Metropolitan Water 
      District of Southern California, Los Angeles, California...    30
        Prepared statement of....................................    32
    Nelson, Barry, Senior Policy Analyst, Natural Resource 
      Defense Council, San Francisco, California.................    22
        Prepared statement of....................................    24
    Neudeck, Christopher H., Owner/Consulting Engineer, Kjeldsen, 
      Sinnock & Neudeck, Inc., Stockton, California..............     6
        Prepared statement of....................................     8
    Rodgers, Kirk, Regional Director, Bureau of Reclamation, U.S. 
      Department of the Interior, Sacramento, California.........    66
        Prepared statement of....................................    67
    Schroedel, Brigadier General Joseph, Commander, South Pacific 
      Division, U.S. Army Corps of Engineers, San Francisco, 
      California.................................................    63
        Prepared statement of....................................    64


 OVERSIGHT HEARING ON ``WATER SUPPLY VULNERABILITIES IN THE SACRAMENTO/
                      SAN JOAQUIN RIVER SYSTEM.''

                              ----------                              


                       Thursday, October 20, 2005

                     U.S. House of Representatives

                    Subcommittee on Water and Power

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 1:03 p.m. in 
Room 1324, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Napolitano, Cardoza, 
Miller, Costa and Pombo.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon. The oversight hearing by 
the Subcommittee on Water and Power will come to order. The 
Subcommittee is meeting today to hear testimony on the topic of 
water supply vulnerability in the Sacramento/San Joaquin River 
System.
    Today's hearing is about learning from the past and 
planning for the future. Every day, we continue to hear about 
the impacts of Hurricane Katrina on Louisiana and the Nation. 
Yet, our home region of California could experience an even 
bigger natural disaster of monumental proportions.
    An earthquake or a massive flood in the Sacramento and San 
Joaquin Basins could simply erase centuries of progress and 
leave a dire future for our entire State. These natural 
disasters are nothing new to California over geologic time, but 
what has changed is how we can better shape our own destiny to 
withstand Mother Nature's constant assaults.
    Californians started this effort with the creation of the 
Central Valley and State Water Projects, a series of storage 
reservoirs and conveyance systems designed to control damaging 
floods, and provide water and power to our family farms and our 
cities.
    Levees on the Sacramento and San Joaquin Rivers, and in the 
Delta, have also been constructed to control floods. Yet, for 
each measurable amount of progress, we can also look back at 
mistakes.
    As recently as 1997, we watched as levees broke and people 
died because the Endangered Species Act put the Elderberry Bark 
Beetle habitat before humans. Today, we continue to see how 
levee repairs are delayed and costs soar, due in part to the 
Endangered Species Act.
    In addition, and sadly, we see that meeting our storage 
infrastructure needs continue to lag behind our rapidly growing 
demand, and as a result, we face a major water crisis. 
Meanwhile, Sacramento continues to have the worst flood risk in 
our country.
    As we witnessed last year with the Jones Tract levee 
failure, we depend on a very fragile, but integrated, water 
supply system. Those of us south of the Delta were impacted by 
this. So it is safe to say that what happens in the Delta 
doesn't necessarily stay in the Delta.
    Like Hurricane Katrina, the Jones Tract situation is a 
wakeup call that should not be ignored. The goal of today's 
hearing is to determine the very extent of our vulnerabilities, 
and more importantly, to help find solutions that all 
stakeholders can participate in, whether it is more 
infrastructure funding, more levee improvements, more storage, 
more planning and coordination, and/or common-sense Endangered 
Species Act changes, we ought to keep everything on the table.
    We should find out what is working and what is not. Simply 
saying no is not going to work. We owe current and future 
generations of Californians the very best in protecting their 
lives, their property, and their way of life.
    We may not find all the answers today, but I hope that we 
can begin to agree on an extensive road map to protection. We 
are fortunate to have some of the very best and brightest 
testifying before us today to help us find those answers.
    I look forward to hearing the testimony and working with 
them and my colleagues in this important pursuit, and I now 
recognize my distinguished Ranking Member, Grace Napolitano, 
for any statement that she may have. Grace.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
                    Subcommittee on Water and Power

    Today's hearing is about learning from the past and planning for 
the future. Every day, we continue to hear about the impacts of 
Hurricane Katrina on Louisiana and the nation. Yet, our home region of 
California could experience an even bigger natural disaster of 
monumental proportions. An earthquake or massive flood in the 
Sacramento and San Joaquin basins could simply erase centuries of 
progress and leave a dire future for our entire State.
    These natural disasters are nothing new to California over geologic 
time, but what has changed is that we can better shape our own destiny 
to withstand Mother Nature's constant assaults. Californians started 
this effort with the creation of the Central Valley and State Water 
Projects, a series of storage reservoirs and conveyance systems 
designed to control damaging floods and provide water and power to our 
family farms and cities. Levees on the Sacramento and the San Joaquin 
Rivers and in the Delta have also been constructed to control floods.
    Yet, for each measurable amount of progress, we can also look back 
at our mistakes. As recently as 1997, we watched as levees broke and 
people died because the Endangered Species Act put the elderberry bark 
beetle before humans. Today, we continue to see how levee repairs are 
delayed and costs soar due, in part, to the ESA. In addition--and 
sadly--we see that meeting our storage infrastructure needs continues 
to lag behind our rapidly growing demand. As a result, we will face a 
major water crisis. Meanwhile, Sacramento continues to have the worst 
flood risk in our country.
    As we witnessed last year with the Jones Tract levee failure, we 
depend on a very fragile but integrated water supply system. Those of 
us south of the Delta were impacted by this, so it's safe to say that 
what happens in the Delta doesn't stay in the Delta. Like Hurricane 
Katrina, the Jones Tract situation is a wake-up call that shouldn't be 
ignored.
    The goal of today's hearing is to determine the very extent of our 
vulnerabilities and, more importantly, to help find solutions that all 
stakeholders can participate in. Whether it's more infrastructure 
funding, more levee improvements, more storage through CALFED, Folsom 
improvement or Auburn construction, more planning and coordination and/
or common sense Endangered Species Act changes, we ought to keep 
everything on the table. We should find out what's working and what's 
not. Simply saying ``no'' is not going to work. We owe current and 
future generations of Californians the very best in protecting their 
lives, their property and their way of life. We may not find all the 
answers today, but I hope we can begin to agree on an extensive roadmap 
to protection.
    We are fortunate to have some of the very best and brightest 
testifying before us today to help us find those answers. I look 
forward to hearing their testimony and working with them and my 
colleagues in this important pursuit.
                                 ______
                                 

STATEMENT OF THE HON. GRACE F. NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman, and thank you for 
your remarks that are so true. I agree with all that you have 
stated. If there is one positive effect of the recent Gulf 
Coast hurricanes, it is that we are now giving more attention 
to the fragile levee system in the Sacramento/San Joaquin 
Delta.
    And that despite all the work that we have done on CALFED, 
and other California issues at this level, I think we all will 
agree that the Delta levees have been neglected at many levels 
by all governments.
    When I visited the Delta in 2003, I was struck how fragile, 
how vulnerable, these--well, I heard 600 and 700 miles of the 
Delta levees. I will take either one of them, because even the 
small waves from the small boat that we were in was washing 
away the soil from the soil levees, and it looked to me like it 
was just waiting to have something happened.
    And as I have read some of the testimony in the reports 
about the condition of the levees, it is frightening and 
horrifying to learn that a major earthquake could liquify and 
pretty much wipe out the Delta as we know it, and that it would 
not take months, but years, to recover, and the expense would 
be so prohibitive that it really would put a dent in many 
budgets.
    And hindsight tells me that we should have paid more 
attention to the levee system when we authorized CALFED, and 
everybody was more focused on new water projects, and the many 
other elements of CALFED, and now I hope that it is really not 
too late to turn our attention to the levee system, and focus 
on that to fully understand what we need to do collectively to 
protect our water supplies.
    And I am talking about not just the north, but also the 
south, who also benefits from those water conveyances. So with 
that, Mr. Chair, thank you very much, and I look forward to the 
testimony from the witnesses.
    Mr. Radanovich. Thank you, Grace. I appreciate that. We now 
recognize the esteemed Chairman of the Resources Committee, Mr. 
Pombo. Richard, welcome.

  STATEMENT OF THE HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Well, thank you, and I ask unanimous consent 
that my statement be included in the record. I know that we 
want to get to the witnesses as quickly as we possibly can. I 
want to thank Chairman Radanovich and Ranking Member Napolitano 
for holding this hearing.
    Obviously this is an issue that is extremely important to 
me, as I represent a good part of the Delta, and that has been 
a major issue. When you talked about Jones Tract, that was in 
my district, and something that we are still dealing with.
    So I thank you for holding this hearing. I look forward to 
hearing the testimony of these great witnesses, and I yield 
back.
    [The prepared statement of Mr. Pombo follows:]

          Statement of The Honorable Richard Pombo, Chairman, 
                      House Committee on Resources

    I commend Subcommittee Chairman Radanovich for holding this 
important hearing. Mr. Chairman, I would like to begin by welcoming my 
constituent Chris Neudeck, who is testifying before us today. Mr. 
Neudeck is a leader in the Delta levee world. He has 24 years of 
experience as a levee engineer, and I look forward to his valuable 
testimony, and thank him for being here today.
    We are all aware that Sacramento and the Delta are some of the most 
flood prone areas in the Nation. Under current conditions, it is not a 
question of ``if'' our levees fail, but ``when.'' This scenario is not 
acceptable.
    Protecting Californians in Sacramento and the Delta is not a 
partisan issue. Senator Feinstein and I sent a letter to the Army Corps 
of Engineers about protecting the Delta levees immediately after 
Hurricane Katrina. We have been working together on getting the Corps 
to conduct a study to determine where to fix the levees and to dredge 
the channels. And today, the Senator and I just sent a letter to 
President Bush asking him to include funding for $50 million in levee 
work in his next supplemental appropriations request.
    As it relates to levee maintenance, it is clear that the Endangered 
Species Act has driven up repair costs. Thirty years ago, the cost per 
linear foot of levee repairs was less than $300. Today, the cost is 
upwards of $5000 per linear foot due, in part, to environmental 
mitigation, permitting and delays associated with the Endangered 
Species Act. No one is suggesting that the Act shouldn't be 
implemented, but we should put some common sense into making sure human 
safety is part of the equation. Otherwise, we are destined to repeat 
the Arboga levee disaster, where three people died in 1997 because 
endangered beetle habitat delayed levee maintenance.
    Water storage is another key piece of this puzzle. Storage has 
worked to control many floods in the past, but there's more we can do 
in this area. We should keep everything on the table as we look to 
flood-proof our region.
    Mr. Chairman, I once again thank you for holding this hearing. The 
flood problems in our region will not be solved overnight, but these 
crucial first steps and this hearing will only help our cause.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Chairman. There being no 
objection, so ordered on the unanimous consent request. Mr. 
Miller.

   STATEMENT OF THE HON. GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, and thank you for holding these 
hearings. I share the concern of my colleagues on the issues of 
the delta and the safety of the deltas, and the need to assess 
that safety, and get on--we all signed a letter saying that we 
would like to get on with some of this work in this year's 
appropriations bill.
    But I also would like to reserve the right to raise some 
questions with respect to what is going on with the water 
quality in the Delta, and I see now that the State has issued a 
14 point response, and I am trying to figure out how these 
things are sequenced when we have not completed the science, 
and people are telling us that they don't know the answers. 
This is the worst thing that they have seen in years.
    And when we asked them before what was going on, they said 
that they don't know, and now we have a 14 point response. So I 
would appreciate it if we could address that later on, and I 
hope to be able to do that, and thank you for the hearings.
    Mr. Radanovich. Thank you, Mr. Miller. I ask unanimous 
consent that the gentleman from California, Mr. Lungren, be 
allowed to join us on the dais, and participate in today's 
hearing. Hearing no objection, so ordered. Dan, welcome to the 
Subcommittee.
    Mrs. Napolitano. I object.
    Mr. Radanovich. You object? We have a problem here. Dan, 
welcome to the Subcommittee.
    Mr. Lungren. Thank you very much, Mr. Chairman. As someone 
who lives in the area affected, I appreciate the fact that you 
are holding these hearings. It seems the only time we really 
worry about floods is when we are in the midst of a flood; and 
the only time we worry about water storage is when we are in 
the midst of a drought, and we need to have visionary thinking.
    I appreciate this. I look forward to hearing from our 
witnesses here. Thank you very much for allowing me to sit on 
the dais.
    Mr. Radanovich. Thank you, Mr. Lungren. Good to have you 
here. Dennis, how are you doing?

   STATEMENT OF THE HON. DENNIS CARDOZA, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cardoza. Very good. Thank you, Mr. Chairman, for 
recognizing me and for holding these hearings. I, too, have a 
statement that I would like to have read into the record. I 
would like to make two points, however.
    We cannot accept a band-aid approach to the Delta levee 
system. We have to have a comprehensive approach that truly 
deals with the magnitude of the crisis that we could see with a 
disaster here.
    If we see a disaster in Mr. Miller's district with an 
earthquake on the Hayworth fault that would liquify the Delta 
levees, or cause liquefaction in that area, we have devastation 
on a scale that would make the horrible tragedy of Katrina 
really pale in comparison in some ways.
    And it could happen much quicker because of the lighting 
quickness of the floods. We could see some incredible 
devastation very quickly to our urban areas on the heels of a 
major disaster in a very populated area, the Bay Area.
    We are talking about hundreds of thousands of people in New 
Orleans, and Mississippi, and we are talking about millions of 
people in the Bay Area and in the upper Central Valley region, 
north of Stockton.
    There is one other point though that I want to make. Some 
emergency officials came to see me about last week, and that is 
that one of the things that plagued the response in Katrina was 
the lack of communication, and inoperability of the first 
responder units.
    The police and fire officials from Stockton and Modesto 
have been coming to see me, and we have to have the opportunity 
to talk more about this, Mr. Chairman, because it affects your 
district, as well as Mr. Pombo's.
    But they have been discussing the belief that my area and 
your area, Modesto and just to the south, would be the Baton 
Rouge area where staging would occur if in fact one of these 
floods and devastation happened in the Bay Area, and we have a 
situation with the levees.
    And that they have no ability to communicate amongst 
themselves between police, fire, and the military, that would 
be leading the response. The Highway Patrol can't communicate 
with each other.
    It has been a problem that we have all discussed, and you 
and I have discussed that in the past, and it is something that 
probably should be also discussed as part of this levee 
discussion as well, because it really is not just rebuilding 
the levee, but how we respond to a disaster in that case as 
well. I thank you for the hearing.
    Mr. Radanovich. Thank you, Mr. Cardoza. I appreciate your 
thoughts, and look forward to working with you on extensions of 
damage that could happen as a result of earthquakes as well.
    I want to introduce our first panel of witnesses. Mr. Chris 
Neudeck, owner and consulting engineer of Kjeldsen, Sinnock, 
and Neudeck, in Stockton, California; The Honorable Mike 
Chrisman, Secretary of the California Resources Agency; Mr. 
David Guy, Executive Director of the Northern California Water 
Association; Mr. Barry Nelson, Co-Director of the Western Water 
Project of the Natural Resource Defense Council; Mr. Dennis 
Majors, Program Manager of the Metropolitan Water District of 
Southern California.
    Gentlemen, welcome to the Subcommittee. I appreciate you 
making a trip back here to Washington, D.C. to deliver your 
valuable testimony. We will be using the five minute clock 
here, and I won't adhere to it strictly, but please note that 
your written statement is submitted for the record, and feel 
free to be extemporaneous in your remarks if you would like.
    I think we will start from the right. Mr. Neudeck, welcome 
to the Subcommittee. You may begin your testimony.

    STATEMENT OF CHRIS NEUDECK, OWNER/CONSULTING ENGINEER, 
    KJELDSEN, SINNOCK AND NEUDECK, INCORPORATED, STOCKTON, 
                           CALIFORNIA

    Mr. Neudeck. Good afternoon. I thank you for this 
opportunity, Mr. Chair, and committee members. Just so you are 
aware, I am a registered civil engineer. I have been practicing 
in the field of water resources engineering for the last 20 
plus years, primarily focused in the San Joaquin Delta.
    We refer a lot to the Jones Tract event. I heard it 
throughout the testimony and in today's briefing papers, and I 
had the daunting challenge, I guess, to be the one in the field 
reclaiming the Jones Tract event, and working with the 
Department of Water Resources, one of the first responders.
    My firm, Kjeldsen, Sinnock and Neudeck, has been in 
business for 50 years, and we have been doing similar type work 
in the Delta ever sine the time of our establishment. I am 
going to walk you through my testimony pretty quickly today, 
focusing really on two areas.
    One, Federal funding and an infusion of funds into an 
ongoing State program, as well as disaster assistance. Just to 
give you a little background, my prepared testimony walks you 
through the history of the Delta, and some of the makeup of it.
    But in 1992, the State legislature filed and passed what is 
known as the Delta Protection Act. In that process, they 
created what is known as the primary and secondary zone. In my 
exhibits, you will see that, but the majority of the Delta as 
we know it, the legal Delta, is in the primary zone.
    And I want to distinguish between the primary and secondary 
zone for one reason. We hear a lot about urbanization of the 
Delta. The majority of the Delta cannot be urbanized as a 
result of this legislation.
    The primary zone is focused and reserved primarily for an 
Ag core. There is a whole bunch of other uses that we can go 
into later, but there is no urbanization in the primary zone.
    With regards to the State and Federal interests in levee 
programs, up until the mid-1980s, there really wasn't a whole 
lot of activity with regards to assistance and how levees were 
constructed.
    The locals constructed the majority of the levee systems 
out there, and were maintaining them. In the mid-1980s, several 
disasters occurred, and we started to see programs develop.
    In mid-1984, we passed what is known as the Delta Levees 
Subventions Program. That program has features in it that 
allows for up to 75 percent reimbursement to the local 
reclamation districts for cost sharing the levee maintenance.
    It has been that program that has probably kept the delta 
in its current state. From 1984 on, a lot of the incidents of 
flooding in the delta has been reduced. You hear these 
situations where there has been 160 levee failures in the last 
century.
    Well, most of those predate 1984. Now, we haven't 
completely reduced levee failures, but we certainly reduced the 
risk to levee failures. My goal today here is to try and limit 
the amount of money that moves into studies.
    I know that is the feature of government, is to study and 
understand the problem before we move forward. But the Corps of 
Engineers has prepared details for levee rehabilitation and 
have prepared actual cross-sections, which is known as PLA499.
    Those particular cross-sections would enable the local 
reclamation district to construct to that standard, and achieve 
a much higher level of protection, but at the same time it 
would not required any additional studies.
    That particular standard has been referred to on a number 
of occasions. Our CALFED Bay Delta Program has referred to it, 
but we don't have the funds in order to undertake that work.
    The message that I am trying to send today is to put 
dollars into dirt, and not dollars into studies. We seem to 
find the money for the studies. We don't seem to find the money 
for the actual work itself.
    What I am recommending is that--and this is a little bit 
off the mark where we typically get monies, and that is that 
the Bureau of Interior actually be part of the levee program, 
and actually look to them to contributing to our levee 
subventions program.
    We would be looking to a Federal contribution of $20 
million; $10 million for the local cost-sharing program, and 
$10 million for the State special projects program. Moving 
quickly alone, the other area that I would like to address is 
the emergency response.
    I think we are all quite familiar with emergency with the 
recent hurricanes. The one thing we cannot do is we cannot 
debate policy at the time of emergency response. I think it is 
important that we understand that disaster is a common enemy, 
and I think we need to move forward and address the emergency 
quickly and rapidly, and arrest it, and contain it, and restore 
order as soon as possible.
    These local reclamation districts do not have the ability 
to undertake restoration of a flooded island. The restoration 
of Jones Tract was on the order of $70 million. That is two 
reclamation districts. So that is 12,000 acres.
    These reclamation districts typically have a budget of 
around $200,000. So you can see the disparity there. but the 
importance to the overall system is incredible. The final area 
is just to talk about whether or not to save the Delta.
    I think that quite often we talk about they isolated 
facility not through Delta. It is very important to understand 
the relationship between the islands, and if we lose one, we 
lose them all. I will leave it at that, and stay within my time 
frame.
    [The prepared statement of Mr. Neudeck follows:]

    Statement of Christopher H. Neudeck, Owner/Consulting Engineer, 
                   Kjeldsen, Sinnock & Neudeck, Inc.,

    I am Christopher H. Neudeck, a California Registered Civil 
Engineer. I have worked for over twenty-four (24) years as an Engineer 
for various Reclamation Districts in the Sacramento/San Joaquin Delta. 
My experience includes levee design, floodfighting, levee break repair, 
dewatering, levee rehabilitation and improvement and routine levee 
maintenance.

Sacramento/San Joaquin Delta
    The Sacramento/San Joaquin Delta is the tidal area where the 
Sacramento and San Joaquin Rivers and their tributaries meet Suisun Bay 
as part of the San Francisco Bay Delta Estuary, the largest estuary on 
the West Coast of the United States. The Delta comprises more than 
738,000 acres in five counties. The Delta's 700 miles of waterways 
surround more than 60 leveed tracts and islands where land elevations 
vary roughly from more than ten (10) feet above sea level to as much as 
twenty (20) feet below sea level. The lowest lands are in the 
agricultural portions of the western Delta where pockets of organic 
soil continue to subside primarily due to oxidation of peat. The Delta 
is an extremely fertile and productive agricultural area, its 700 miles 
of meandering, sheltered waterways provide for a recreational 
wonderland, its channels serve as the hub of the deliveries of water 
from north to south and store and provide for the capture of surplus 
natural flows, and it is the State's most important fishery habitat. 
The Water Education Foundation reports an estimated 25 percent of all 
warm water and anadromous sport fishing species and 80 percent of the 
state's commercial fishery species live in or migrate through the 
Delta. Contained within the Delta are the Cities of Antioch, Brentwood, 
Isleton, Pittsburg and Tracy and numerous unincorporated towns and 
villages. Major cities partly within the Delta are Sacramento, 
Stockton, West Sacramento and Lathrop. Attached hereto is Table 7 from 
the 1993 Delta Atlas prepared by the California Department of Water 
Resources which provides Delta statistics
    Since 1990, urban development has greatly expanded. Recreational 
uses have also expanded but at a lesser rate. The conversion of Delta 
agricultural lands to other uses includes major areas set aside for 
wildlife habitat. In 1992, the State established the Delta Protection 
Commission which essentially precluded urban development within the 
``Delta Primary Zone'' shown on the attached map. This area which is 
primarily devoted to agriculture has the least ability to pay and 
contains some of the more challenging levee problems.

Recognition of Need for Delta Levee Action
    Although the State and Federal interest and need for action to 
upgrade Delta levees has been clear for many years, significant State 
and Federal assistance has been basically limited to disaster 
assistance until 1984 when the State committed roughly Ten Million 
Dollars per year to the State Delta Levee Maintenance Subvention 
Program. One-half of the funds went to special projects of the 
California Department of Water Resources and the other one-half to a 
local cost-share program where after the local district expended 
$1,000.00 per mile of levee the State would reimburse up to 75% of the 
cost. Due to limited availability of funding, the State failed to 
provide its full cost share and the typical reimbursement has been 
about 50% to 60%. Funding for this critically important program will 
end on June 30, 2006.
    Although the federal interest in agriculture, commercial and 
recreational navigation, the Stockton and Sacramento Inland Ports, 
highways, railroads, electrical transmission lines, natural gas 
storage, utility pipelines, anadromous fish, migratory waterfowl, and 
fresh water supplies as related to the Delta is and has been clear, the 
non-disaster federal contribution to maintenance and rehabilitation of 
the non-project levees in the Delta has been directed primarily to 
studies. The U.S. Army Corps of Engineers Draft Feasibility Report and 
Draft Environmental Impact Statement - October 1982 reports that the 
Sacramento-San Joaquin Delta Investigation began in 1962. To date the 
studies have failed to produce any physical work.

There Is A Real Need To Secure Funds That Will Result in Immediate 
        Placement of Dirt and Rock On Existing Levees To Reduce The 
        Risk of Levee Failure
    The most effective way to accomplish this result is to contribute 
funding to the already ongoing State Delta Levee Maintenance Subvention 
Program which is administered by the State Reclamation Board through 
the California Department of Water Resources and California Department 
of Fish and Game. The program allocates funding for reimbursement to 
local agencies based on categories. Category 3. includes expenditures 
to achieve the Short Term Hazard Mitigation Plan Standards and Category 
4 includes expenditures to achieve the U.S. Army Corps of Engineers PL 
84-99 Delta levee standards for agricultural levees or the comparable 
Bulletin 192-82 State Standards.
    Attached hereto is a sketch depicting the PL84-99 Corps of 
Engineers Delta levee standards. Most notable is the variable landside 
levee slope or ``backslope'' which is dependent upon the depth of peat. 
Achieving the PL 84-99 Delta agricultural levee standards is feasible 
and would reasonably reduce the risk of levee failures.

Recommendation
    It is recommended that federal funding be directed through the U.S. 
Department of Interior Bureau of Reclamation to supplement the State 
and local funding of the State Delta Levee Subvention Program and to 
supplement the State Delta Levee Special Project Program.
    A federal contribution of Ten Million Dollars per year should be 
made to each of the two Delta levee programs commencing as soon as 
possible to assure that the programs will continue past June 30, 2006.
    The contribution to the State Delta Levee Subvention Program could 
be limited to achieving the Category 3 Short Term Hazard Mitigation 
Standards and Category 4 PL 84-99 Corps of Engineers Delta Levee 
Agricultural Standards with the proviso that federal funds will be used 
with state funds so as to result in the local cost share for such 
categories of no more than ten (10) percent. The match with state funds 
should be left to resolution between the state and federal agencies but 
should not delay or preclude the investment of the federal funds. If, 
for example, the state is unable to fund its share, then federal funds 
should be allowed to be expended with the local ten percent (10%) match 
to accomplish the desired work as soon as possible. The adjustment with 
the state in recognition of past state expenditures in the program 
without federal contribution can, if necessary, be accomplished in 
future years.
    The contribution to the State Delta Levee Special Projects Program 
should also involve a match with state or local funds but the emphasis 
should be on immediate investment of such funds in accomplishing the 
needed work on the Delta levees.
    In some cases even at ten percent (10%) the local reclamation 
districts may be unable to fund their share. The federal funds should 
be provided with some flexibility to reduce the local share even below 
the ten percent (10%) based on an ability-to-pay analysis similar to 
that already being used by the state.

Levee Break Response Plan
    The Delta levee rehabilitation should be viewed as an ongoing 
process resulting in gradual but increasing stability. Although the 
risk of levee failure will be reduced, it will never be eliminated. 
Local agencies can help floodfight but do not have the financial 
ability to repair a levee break, dewater the flooded areas or otherwise 
undertake major restoration work. Once a levee break occurs, the 
assessable base of the local agency is of little value. The opportunity 
for possible reimbursement through currently structured disaster 
assistance or similar types of programs does not provide the cash 
necessary to accomplish the work. Given today's costs, only a state or 
federal agency has the financial capability to adequately respond to a 
Delta levee break. A plan for immediate response by a state or federal 
agency once a levee break occurs is essential to containment of the 
damages. The plan should provide for restoration of the public 
facilities to the point that the local agencies can financially and 
effectively resume operation and maintenance. Emergency response 
regardless of the type of emergency should not involve a debate on 
policy. Immediate ``no holds barred'' response to arrest the threat 
should be the goal.

There is no reasonable alternative to preservation of the Delta levee 
        systems.
    Although there are numerous levee systems protecting separate 
islands or tracts of land in the Delta, there is a critical 
interrelationship of such systems. For the so-called lowlands which are 
areas below five feet above sea level the flooding of a particular 
island or tract will result in seepage into adjoining lands, levees and 
embankments. The generation of wind waves across large open bodies of 
water also creates a serious threat to adjoining facilities. As 
demonstrated by the June 2004 flooding of Jones Tract, the seepage and 
wind waves from flooded areas can result in the failure of adjoining 
levees, railroad and highway embankments and major utilities with a 
real potential for a domino-type impact.
    Due to the resulting depth of water flooding of Delta islands or 
tracts will not result in shallow marsh habitat but rather will result 
in the creation of a large lake or bay. The areas abutting such a lake 
or bay and particularly those which are developed will suffer from 
rising groundwater tables. Abutting levees and embankments will have to 
be raised and fortified.
    Another important consideration is the preservation of fresh water 
supplies. The Delta levee systems are critical to the efficient control 
of salinity intrusion from the Bay into the Delta which is the hub for 
water deliveries throughout the state. There is also a huge increase in 
evaporative loss when an agricultural area is left in a flooded 
condition. The commonly recognized ``rule of thumb'' is that 2 acre 
feet per acre more of fresh water will be lost from a flooded area than 
from the same area subjected to farming. Attached is a copy of the 
1976-77 Estimated Crop Et Values for the Delta Service Area reported by 
the Department of Water Resources in Bulletin 168 - October 1978. A 
comparison of the various crop types to the item for ``Riparian Veg. & 
Water Surface'' displays the potential impact. If for example 460,000 
acres of Delta lowlands were allowed to be permanently flooded, the 
additional fresh water loss would be about 920,000 acre feet per year. 
To replace such a loss particularly in a dry year would require the 
entire yield from a number of very large dams.
    The alternative of an inland saltwater bay with the resulting 
salination of groundwater basins, adverse impacts to fish, waterfowl 
habitat and recreation and loss of Delta pool storage is also not a 
good choice.
    Immediate action is in the best public interest.

    [Attachments to Mr. Neudeck's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T4348.001
    
    [GRAPHIC] [TIFF OMITTED] T4348.002
    
    [GRAPHIC] [TIFF OMITTED] T4348.003
    
    [GRAPHIC] [TIFF OMITTED] T4348.004
    
    [GRAPHIC] [TIFF OMITTED] T4348.005
    
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Neudeck. I 
appreciate that. We are pleased to have before the Subcommittee 
The Honorable Mike Chrisman, Secretary, California Resources 
Agency. Mike, welcome to Washington, and welcome to the 
Subcommittee. I appreciate you coming here to deliver your 
testimony.

STATEMENT OF THE HONORABLE MIKE CHRISMAN, SECRETARY, CALIFORNIA 
            RESOURCES AGENCY, SACRAMENTO, CALIFORNIA

    Mr. Chrisman. Thank you, Mr. Chairman. It is nice to be 
here, and I appreciate the opportunity to be here today to talk 
about some of the vulnerabilities in the Sacramento/San Joaquin 
Delta. Of course, I think you have all in the Members' 
preliminary statements, you all indicated the problems that we 
have and we are facing in the Sacramento/San Joaquin Delta.
    Of course, the flood damage in Sacramento and San Joaquin 
Valleys have been extensive over the years. If you look back to 
1997, and some of the activities there. Last year, of course, 
many of you have talked about the Jones Tract break and the 
expense there.
    Given all of that, given the State's burgeoning population, 
and the fact that we have 37 plus million people now, there has 
been a population that really is pushing into many of these new 
commercial and industrial development, and pushing into a lot 
of these areas that historically have been susceptible to 
flooding.
    Yet, State and Federal, and local funding to maintain and 
repair, and upgrade some of these flood protection 
infrastructures has really not kept pace with those demands. As 
I think most of you know also, that in the Delta that we are 
facing, and we have, some of the oldest of the flood management 
system.
    The levees were built primarily to protect farm land, but 
as the population grows, and as people move into the areas, 
these same flood control levees and dykes are being now asked 
to protect people and property.
    There is well in excess of a million people, and two 
million acres of highly productive land, 200,000 structures, 
with an estimated value of billions of dollars in this 
particular area.
    What we really need more than anything is a comprehensive 
plan to help make strategic investments, and I emphasize the 
word strategic, but strategic investments in levee maintenance 
and improvements, and educating the public about the importance 
of flood protection on an ongoing basis, about the flood risks, 
and trying to discourage to the extent that we can new 
development in many of the high risk areas.
    This last year, in January of this last year, Governor 
Schwarzenegger, through the Resources Agency, and the 
Department of Water Resources, released a White Paper detailing 
many of the existing flood infrastructure deficiencies.
    It is a White Paper that is actually on the website, and as 
Members, you will be receiving, and we are going to be 
delivering that to your offices over the next week or so. But 
in January of last year, we laid out some of the high risk 
areas.
    This report indicted that we should reevaluate much of the 
flood control system to improve on flood plan maps, and do a 
whole series of new planning activities. I think we know what 
the possible catastrophe could come about without good forward 
planning.
    Much of it was articulated by many of you before the 
hearing. Damage to structures, and contents, and property, we 
think would be extensive over time if you ended up with an 
earthquake that could create liquification activities.
    But you also know that the problems that we face with much 
of the public attention focused on this situation now, we 
really have an opportunity to improve our programs and invest 
wisely, and to work together to make a difference for the 
future.
    Earlier this year, the Governor proposed to increase the 
State's general fund budget for flood management by 
approximately $9.4 million, and this was adopted in the final 
2006/2007 budget. This was a 70 percent increase in State 
funding for levee maintenance, and flood emergency response 
activities.
    He also signed two bills that represent small steps to 
improve the Sacramento/San Joaquin Delta flood control efforts, 
one being AB 1200 by Mr. Laird, which directs the Department of 
Water Resources and the Department of Fish and Game to study 
island subsidence, floods. earthquakes, and other issues facing 
the Delta.
    Also, SB-264 by Senator Machado extends the Delta Levee 
Subvention Program for a period of two years, and obviously our 
biggest challenge as NCRA continues to be funding, and that 
funding is going to run out in June of 2006. That is an issue 
that we are going to be working on pretty strongly.
    We have also in place at the State level a Delta Risk 
Management Study that essentially is an ongoing effort to take 
a look through boring activities and other activities, to take 
a look at the health or the integrity of many of the levees.
    Our plan is to have that study done by mid-2007. We already 
know in some of the areas where most of the high risk levees 
are. We are going to be pushing to try to get those studies 
done earlier rather than later.
    I think the important thing out of a hearing like this is 
to recognize that we attack these issues by creating 
partnerships, partnerships from the local, State, and Federal 
level.
    I think that we learned in the Jones Tract at the Federal 
level, with our good partners, the Corps of Engineers, that 
their responsibilities and immediate activities, absent some 
sort of Federal declaration of emergency, is unclear.
    We probably ought to clear that up in terms of future flood 
activities and emergency activities. So, again, partnership is 
the key. I think we really need to work harder to develop these 
partnerships, and to create these opportunities at the local, 
State, and Federal levels.
    And, of course, funding is what we really need as much as 
anything else. One of the lessons that we can take away from 
these recent events, and investing in these flood management 
programs, including levee maintenance and activities, that 
emergency response can and is a life-saving activity.
    So I really look forward, and the State of California 
really looks forward, to working with all of you in this 
effort. Thank you.
    [The prepared statement of Mr. Chrisman follows:]

         Statement of Mike Chrisman, Secretary for Resources, 
                      California Resources Agency

    Thank you for the opportunity to address the Subcommittee on Water 
and Power on the issue of Water Supply Vulnerabilities in the 
Sacramento/San Joaquin River system.
    Long before the recent devastation caused by Hurricanes Katrina and 
Rita, we have known that floods in California could cause damage much 
like the devastating flooding that took place in the Gulf Coast.
    New Orleans had a 250-year protection level. But many cities in our 
state, including the Sacramento metropolitan area, have only about a 
100-year level of flood protection. In fact, Sacramento has the lowest 
flood protection of any large urban area in the nation.
    Flood damage in the Sacramento and San Joaquin valleys have cost 
property owners and taxpayers billions of dollars over the past two 
decades. Our 1997 floods forced more than 120,000 people from their 
homes, and damaged or destroyed 30,000 homes and 2,000 businesses. Last 
year, a single levee break on Jones Tract in the Delta cost nearly $100 
million for emergency response, damage to public and private property, 
lost crop production, levee repair and pumping costs.
    Even so, a burgeoning Golden State population is pushing new 
commercial and residential development into areas that are historically 
susceptible to flooding. Yet the federal, state and local funding to 
maintain, repair and upgrade our flood-protection infrastructure has 
failed to keep pace with our needs.
    California's old and deteriorating Central Valley flood management 
system was built primarily to protect farmlands. But the system is 
increasingly needed to protect people living and working in the 
floodplains. Today, Central Valley flood control projects protect more 
than half a million people, two million acres of highly productive 
agricultural land, and 200,000 structures with an estimated value 
exceeding $50 billion. And these numbers are increasing daily.
    We need to protect Central Valley residents and businesses from the 
threat of flooding, and we need to protect Californians from the 
enormous financial liability they face when these floods happen.
    We can do this by making strategic investments in levee maintenance 
and improvements, educating the public and local agencies about flood 
risks, and discouraging new development in areas of high risk unless 
the flood control system is upgraded.
    This past January, Governor Schwarzenegger through the Resources 
Agency's Department of Water Resources (DWR) released a White Paper 
that detailed many of the existing flood infrastructure deficiencies. 
It highlighted conditions that have created a ``ticking time bomb'' for 
flood management in California.
    The report indicates we should re-evaluate much of the flood 
control system to improve our floodplain maps, many of which are 
inaccurate and out of date. Then, we need to rehabilitate levees to 
give our communities an appropriate level of flood protection.
    If we do not, the consequences will be staggering.
    The Sacramento/San Joaquin Delta is home to 400,000 residents, 
vital port facilities, major highways and railroads as well as the 
state and federal water projects that provide drinking water to 22 
million Californians (approaching one-tenth of the entire U.S. 
population) and 7 million acres of irrigated land. It includes nearly 
60 islands and tracts that lie below sea level, protected by marginal 
levees. In the past century, there have been more than 160 levee 
failures, and we have adopted a solution of fixing them one by one.
    Earthquakes are as common a natural condition in the West--
particularly California--as hurricanes are a part of common atmospheric 
conditions in the southeast and gulf state region. A 6.5 magnitude 
earthquake on the Coast Range-Central Valley Fault that meanders under 
the west Delta would produce more than 30 levee breaches on 16 Delta 
islands.
    Thousands of residents would be threatened. Levee breaks would draw 
salt water into the Delta from the San Francisco Bay--shutting down the 
State Water Project and the Central Valley Project, as well as water 
deliveries to much of the San Francisco Bay Area. Major power and gas 
transmission lines would be damaged, impacting power delivery to the 
entire state. State highways 4, 12, and 160 would be inundated, 
creating lengthy detours and jamming other highways and freeways. 
Environmental damage to the Delta ecosystem would be devastating.
    Using optimistic estimates, the damage to the Delta would take more 
than 15 months to repair and cause perhaps $20 billion in economic 
impacts. More realistically, several Delta islands would likely never 
be recovered before Delta wind-driven waves eroded through miles of 
unprotected levees on the flooded islands. This would result in 
permanent landform changes and water supply and water quality impacts 
with perhaps $40 billion in economic impacts.
    Consider an urban scenario, not unlike what happened in New Orleans 
after Hurricane Katrina. A large regional flood could lead to levee 
breaches in several parts of Sacramento, inundating approximately 54 
square miles. More than a quarter of a million people live in areas 
that would be inundated with at least one foot of flooding; 
approximately 89,000 people live in areas with at least 6 feet of 
flooding; and 23,000 people live in areas that would have at least 10 
feet of flooding.
    The number of causalities for this levee-failure scenario obviously 
cannot be predicted. But if the experience of New Orleans with 
hurricane Katrina is indicative, the number of deaths in Sacramento 
could amount to hundreds of people, depending on lead time and 
response. Damage to structures, contents, and other property would be 
approximately $5 billion. Emergency response costs, cleanup, and long-
term economic impacts would be greater. Statistically, this scenario 
has a higher probability of occurring than what occurred in New 
Orleans.
    But knowing the problems we face, and with much public attention 
focused on this situation, we have the opportunity now to improve our 
programs, invest wisely, and work together to make a difference for the 
future.
    In the short term, we need to maintain our existing systems. Then, 
we need to evaluate systems for long-term viability. And for the long-
term, we need to adopt systems to provide reliability, in a way that is 
balanced with our resource demands.
    Earlier this year, Governor Schwarzenegger's proposal to increase 
the state's general fund budget for flood management by approximately 
$9.4 million was adopted in the final state FY06-07 budget. This is a 
70 percent increase in state funding for levee maintenance and flood 
emergency response.
    The Governor also just signed two bills that represent small steps 
to improve Sacramento-San Joaquin Delta flood control efforts. Assembly 
Bill 1200 (Laird) directs the Department of Water Resources and the 
Department of Fish & Game to study island subsidence, floods, 
earthquakes and other issues affecting the Delta. Senate Bill 264 
(Machado) extends Delta Levee Subventions program for two years, but 
funding is still lacking beyond June of 2006.
    This year the Delta Levees Subventions Program will provide $4 
million in state matching funds to help maintain and improve 
approximately 600 miles of levees. The Special Projects program will 
contribute funding to make important improvements to levees on New Hope 
Tract, and the Department of Water Resources will work with the U.S. 
Army Corps of Engineers to prioritize funding for new Delta levee work 
under Public Law 108-361. Land use changes will be implemented on 
department-owned land to stop the ongoing degradation of Delta soils
    In a September 14, 2005 letter to House Resources Committee 
Chairman Pombo and Senator Feinstein, Governor Schwarzenegger, together 
with the U.S. Army Corps of Engineers and the Sacramento Area Flood 
Control Agency identified 12 priority projects and programs for 
California levee system that need federal funding to help avoid a flood 
event like Hurricane Katrina (letter attached).
    We believe that all of these projects are worthy of funding by 
Congress now to avoid a situation like we have recently witnessed on 
the gulf coast and the state would be please to provide you additional 
information on any of these projects. In addition to the specific 
projects listed in the letter, the following activities are extremely 
important to ensure that federal, state and local flood management 
funding decisions are strategic, long-term investments.

Delta Risk Management Strategy
    For more than 30 years, the state has been working with local 
interests to maintain and improve Delta levees by cost-sharing these 
efforts. It is imperative that we develop a thorough understanding of 
those risks to the Delta and to our infrastructure of statewide 
significance resulting from Delta levee failures. Factoring in the 
potential for sea level rise, a major earthquake, and greater peak 
river flows caused by global climate change adds to the urgency. 
Thorough understanding of risks and benefits is needed so that 
reasonable policy can be made and implemented to preserve the Delta.
    The Delta Risk Management Strategy will tabulate the benefits and 
hazards for each Delta island. It will develop a thorough understanding 
of the data, and incorporate it into a peer-reviewed risk analysis. 
This assessment will also propose cost effective measures to manage the 
risk in both the short and long term; identify land use changes to 
preserve the Delta; and develop a plan of action for future steps.
    These actions will form the basis for changes in policy that will 
guide the use of state funding for Delta levee improvements into the 
future.

HR-2828 Delta Project Priority Study
    The Department of Water Resources and Department of Fish & Game are 
working with the U.S. Army Corps of Engineers to provide a well-
coordinated report to Congress that will prioritize funding for 
combined federal, state, and local cooperation to improve the Delta 
levees. This report will detail the importance of specific Delta levees 
to both state and federal interests and provide the justification for 
up to $90 million in new federal funding for improving the Delta 
levees.

Emergency Response Planning
    Reinvigorating the federal government's commitment to emergency 
response planning for levee failures in the Delta and engaging in 
robust emergency response planning and pre-positioning of resources are 
also crucial. The Corps had only a limited response to the Jones Tract 
Levee failure in 2004, intended to prevent levee breaches of adjacent 
islands after the Tract had flooded. The Corps did not participate in 
closing the breach or the pumping of flood waters from Jones Tract. The 
Corps commitment to assist closing breaches or reclaim islands in the 
Delta during a flood disaster is unclear. Congress needs to provide the 
Corps clear authority and funding that commits the Corps to swiftly 
respond to levee failures and in reclamation of islands in the 
aftermath of a flood disaster in the Delta. The Corps should fully 
participate with the state to create an emergency response plan that:
    <bullet>  Includes early warning of storm events
    <bullet>  Rapid reconnaissance of distress
    <bullet>  Pre-positioning of flood fight and rock materials
    <bullet>  Planning for contracting for barges and barge-mounted 
equipment
    <bullet>  Planning for flood-fight resources
    <bullet>  A robust hydrodynamic model that helps analyze the 
effects of levee failures on water quality which would help prioritize 
repairs of multiple levee failures
    These action items are important steps for the state and federal 
government. Much more needs to be done. As partners, we need to work 
harder and invest more resources to ensure that California achieves the 
comprehensive and sustainable levels of flood protection that it needs 
and deserves.
    One of the lessons we should take from recent events is that 
investing in flood management programs, including levee maintenance 
activities and emergency response, is a lifesaving investment that 
should not be ignored or postponed. We look forward to working with you 
to achieve this goal. Together we will be able to make a difference.

    [An attachment to Mr. Chrisman's statement follows:]

    [GRAPHIC] [TIFF OMITTED] T4348.006
    
    [GRAPHIC] [TIFF OMITTED] T4348.007
    
    [GRAPHIC] [TIFF OMITTED] T4348.008
    
                                ------                                

    Mr. Radanovich. Thank you very much, Mr. Secretary. Mr. 
Barry Nelson is the Co-Director of the Western Water Project, 
Natural Resource Defense Council, and is next to testify. Mr. 
Nelson, welcome to the Subcommittee. You may begin your 
testimony.

STATEMENT OF BARRY NELSON, CO-DIRECTOR, WESTERN WATER PROJECT, 
  NATURAL RESOURCE DEFENSE COUNSEL, SAN FRANCISCO, CALIFORNIA

    Mr. Nelson. Thank you, Chairman Radanovich, and members, 
NRDC has been involved in issues related the Bay Delta System 
for over 15 years, and for me those years with regard to levee 
stability. So we really appreciate the opportunity to testify 
before you today.
    The Delta is one of the State's most important ecosystems. 
It is also tremendously important for water supply for the 
State of California. But in addition to those important values, 
it is also important to the Delta farming community, highways, 
utilities infrastructure, Delta residents, as well as the Delta 
economy.
    It is a tremendously important thousand miles, a thousand 
square miles, in the heart of California. Unfortunately, that 
Delta is often overlooked, but two events in the last year have 
really brought attention to the issues related to the stability 
of the Delta.
    One of those, of course, was Hurricane Katrina. The second 
was a report from the University of California at Davis that 
revealed the risk of a combination of Delta subsidence and sea 
level rise as a result of climate change, increasing the risk 
of what could be a catastrophic failure of levees, that has the 
potential to be damaging to all of those interests who depend 
on the Delta.
    In addition to that long term threat, the Delta is facing a 
crisis today in the decline of the health of that Delta 
ecosystem. Delta fisheries are at the lowest point ever.
    It is important to bear both of those crises in mind; the 
long term stability, and the short term health of the 
ecosystem. We think that solutions that work are going to be 
solutions that tie those two problems together, and build 
solutions together.
    The CALFED program has begun to do that, but frankly, it is 
an area where we need to put more attention than we have been 
able to in the last several years. Governor Schwarzenegger, as 
Mr. Chrisman has mentioned, has launched a number of 
initiatives related to this, including a reevaluation of the 
CALFED program, and we think that this issue should rise to the 
fore in the CALFED program as a part of that reevaluation.
    I would like to very briefly talk about six issues that we 
think are key parts of a long term plan to address Delta 
stability. The first is addressing diversions, pollution, and 
evasive species, three key issues affecting the health of the 
Delta today.
    The protections that have been in place for the last 
several years simply have not been working, and we need to 
tackle the health of the ecosystem, which is in crisis today.
    The second thing we need to do is to effectively address 
the stability of Delta levees. Frankly, maintaining all of 
those thousands of miles of Delta levees may not be possible. 
We believe that ecosystem restoration, and restoring some of 
those Delta islands, could help benefit that declining 
ecosystem, and reduce Delta levee maintenance costs, and make 
the challenge of maintaining Delta more achievable. Financing 
that is going to be a challenge. The State is looking at a 
water infrastructure investment program. We think that Delta 
levees need to be a part of that program in order to 
effectively maintain the Delta over the long term.
    Third, we need to reduce California's risk of Delta failure 
by reducing our dependence on the Delta. The more we divert 
from the Delta increase our dependence, the more vulnerable 
California is to a disruption of that source.
    There are a variety of proven tools that we think can 
reduce our reliance on what is by all universal agreement a 
vulnerable system. Fourth, we need to tackle sprawl in the 
Delta.
    There are 400,000 Delta residents now, and that number is 
growing dramatically, and frankly, we are concerned that when 
we put Californians below sea level and in a vulnerable Delta, 
we are putting more people at risk. There is increased 
recognition of that.
    Fifth, we need to step back and look at systems, at 
programs that have looked at the Delta in the past, and pay 
attention to how issues like this, issues like ecosystem 
health, and especially Delta vulnerability, have slipped 
through the cracks.
    And we need to make sure that we don't let that happen in 
this program. And then finally, my sixth and more general 
point, is something without which we don't believe we can 
ensure the long term future of the Delta.
    Dr. Mount concluded in the UC-Davis study that one of the 
greatest threats to the Delta is sea level rise caused by 
climate change, and the State of California recognizes that 
threat.
    The State Water Plan recognizes it. Climate change is not 
just a threat to the Delta; it is a threat to our snow pack and 
water supplies. The Governor has called for action on climate 
change. The Governor has launched an ambitious program to 
address that issue.
    But the State can't do that alone. We think that a 
partnership with Congress is important. The Senate has called 
through a resolution for mandatory limits on greenhouse gases.
    We think that an awareness, and an increasing awareness of 
climate change, potential climate change, impacts on the Delta 
and California's whole water supply, could increase the 
possibility of action in Congress in the coming year.
    Frankly, the most important thing Congress could do to 
tackle the long term stability of the Delta is to tackle 
climate change head-on, and if we don't get that under control, 
it will be extremely difficult to protect the Delta over the 
long term. Thank you.
    [The prepared statement of Mr. Nelson follows:]

           Statement of Barry Nelson, Senior Policy Analyst, 
                   Natural Resources Defense Council

    Chairman Radanovich and members of the subcommittee, thank you for 
the opportunity to appear before you today. My name is Barry Nelson and 
I am a Senior Policy Analyst with the Natural Resources Defense 
Council, where I am the co-director of NRDC's Western Water Project. I 
have been active in Bay-Delta issues for twenty years. For the past 
fifteen years, I have been deeply involved in collaborative Bay-Delta 
efforts such as the CALFED Bay-Delta program. For much of this time, I 
have been involved in issues related to the stability of the 
Sacramento-San Joaquin Delta.
    I am particularly pleased to testify before you today regarding the 
long-term stability of the Delta. This issue has been long overlooked. 
The Delta is one of the state's most important ecosystems. It is also 
important to many stakeholders and tens of millions of Californians who 
drink Delta water. I will close my testimony with recommendations 
regarding a long-term plan for the Delta and additional steps that must 
be taken to protect the Delta and other California water supplies in 
the future.
    Two events in the past year have drawn attention to this issue. 
First, Dr. Jeff Mount of the University of California at Davis has 
studied the Delta extensively. He has paid particular attention to the 
ongoing subsidence of Delta islands that are already well below sea 
level and to predicted sea level rise, as a result of climate change. 
Dr. Mount has determined that during the coming half century, as a 
result of these changes, the Delta is vulnerable to a large-scale 
failure of multiple levees. Large-scale levee failure would be a 
disaster for farmers, highways and utility infrastructure, water 
supply, the Delta ecosystem and Delta residents. Hurricane Katrina is 
the second event that has drawn attention to the vulnerability of 
California's Delta.
    Historically, it has been easy to overlook the Delta. California's 
more glamorous ecosystems--Yosemite, beaches, the redwoods and the 
desert--have garnered far more attention. The Delta was once a 1,000-
square-mile tule marsh. Most of this marsh is now gone, but the Delta 
remains vitally important. The Delta supports the biggest salmon run 
south of the Columbia River and a major recreational fishery. Every 
winter its islands fill with waterfowl. Four hundred thousand 
Californians call it home. More than 20 million Californians rely on it 
for a portion of their water supply.
    It is important to note that, in addition to the threat to its 
stability, the Delta is threatened by another looming crises--the 
collapse of its ecosystem. Delta smelt, striped bass and other fish 
have reached their lowest ebb in history. This decline is discussed 
further in an article attached to my testimony. A recent Department of 
Interior biological opinion cites water project operations as a major 
cause. It is not a coincidence that total water pumped from the Delta 
has been the highest ever in three of the past five years. Recently, 
scientists believe invasive species and pollution may also be playing a 
role. A small nudge could be enough to push the smelt--a bellwether for 
the ecosystem--over the brink of extinction. This collapse also has 
major implications for the Delta economy, which benefits greatly from 
tourism and recreational fishing.
    It is important to note both of these crises, because a successful 
strategy for the Delta must address both ecosystem health and system 
vulnerability.
    A few say that these crises call for reconsidering the Peripheral 
Canal. If the canal were built, the state's two big water projects--the 
Central Valley Project and State Water Project--could bypass the Delta 
and pump water directly from the Sacramento River. Voters rejected the 
canal in 1982, fearing a water grab and disaster for the Delta and San 
Francisco Bay. Successive governors and CALFED, the state-federal 
program to restore the Delta, have rejected the canal as well.
    Concerns about the Peripheral Canal are well founded. If it were 
built, there would no longer be any physical imperative to release 
water to the Delta and Bay. The Delta's fate would be determined by 
regulations and promises from state and federal agencies. Water 
exporters are already working to weaken legal protections for the Delta 
and the Sacramento River.
    Building the canal would do nothing to improve Delta stability. In 
fact it would eliminate Southern California's major motive to protect 
it. Today, the Southland--with the majority of the state's voters and 
taxpayers--values a healthy Delta because one fifth of its drinking 
water supply depends on it. With a Peripheral Canal, it would not. In 
short, a Peripheral Canal could seal the Delta's fate. The implications 
for Delta residents, highways, and other infrastructure, as well as the 
health of the estuary, could be very serious.
    Finally, the canal would take decades and perhaps tens of billions 
of taxpayer dollars to build. Delta water users are unwilling to pay 
for this project. We shouldn't consider an investment on this scale 
until elected officials and agencies develop a Delta solution that 
works. It's time to tackle problems that agencies have ducked for 
decades.
    The CALFED program has recognized the need to protect the stability 
of the Delta. Indeed, reducing system vulnerability was one of the four 
purposes of the CALFED program. However, this element of the CALFED 
program has, until recently, received far less attention than others. 
CALFED agencies are only now beginning to tackle the long-term concerns 
identified by Dr. Mount. As you may know, Governor Schwarzenegger has 
recently launched several ambitious evaluations of the CALFED program. 
In addition, the legislature recently passed and the Governor signed AB 
1200, which will start a process of examining these Delta stability 
issues. NRDC and other environmental and fishing organizations have 
recommended that, as CALFED is reshaped, it should include particular 
focus on the development of a long-term plan for the Delta.
    NRDC believes that a successful long-term Delta plan must 
accomplish five things:
    1)  Address the problems of diversions, pollution and invasive 
species to restore the health of the Delta and its fisheries, including 
stronger standards that hold up under the attacks of water exporters. 
The protections in the CALFED ROD for the Delta are simply not working.
    2)  Effectively address the stability of Delta islands. Maintaining 
them all may be impossible. Returning some of them to marsh could help 
the environment and reduce the challenge of maintaining levees. 
Financing this program will be a challenge. Delta water exporters, who 
benefit from these levees, should help fund their maintenance.
    3)  Reduce the risks to Californians who rely on Delta water by 
reducing their dependence on it, through conservation, water recycling 
and more. Increasing Delta diversions further would exacerbate the 
estuary's decline and make California even more vulnerable to 
disruptions in the Delta.
    4)  Stop sprawl in the Delta. Building homes on below-sea-level 
Delta islands is putting more Californians at risk.
    5)  Learn from past mistakes. Any attempt to shortcut efforts to 
save the Delta and build a Peripheral Canal will waste precious time 
and energy.
    This effort will require collaboration and leadership.
    Finally, as Dr. Mount correctly concluded, one of the major threats 
to the future of the Delta is future sea level rise, which is 
anticipated to result from climate change. In fact, over the past 
century, sea level in the Bay has already begun rising. This, however, 
is only one of the many anticipated water related impacts of climate 
change. For example, the new California water plan recognizes the 
potential for climate change to reduce existing snowpack, reducing 
water supplies for all who rely on the Sierra. One of the attachments 
to this testimony is a summary of the science related to climate 
change. As California's governor said recently: ``The debate is 
over...the time for action is now.'' Governor Schwarzenegger recognized 
the serious potential impacts of climate change on California, and its 
water supply last summer when he stated that: ``Global warming 
threatens California's water supply, public health, agriculture, 
coastlines and forests--our entire economy and way of life. We have no 
choice but to take action to reduce greenhouse gas emissions.'' The 
severity of the potential impacts of uncontrolled climate change on the 
Delta further indicate the need to address this problem head on. To 
reduce these future impacts, the state is developing an ambitious 
program to reduce greenhouse gas emissions. However, the state cannot 
succeed alone.
    During the coming year, we anticipate that Congress will have an 
opportunity to pass mandatory limits on global warming pollution. Last 
June, the Senate passed a resolution calling for such mandatory limits. 
We are hopeful that rising awareness of the potential impacts of 
climate change on the Delta and water supplies will help lead to 
Congressional action in 2006. In short, the most important action that 
Congress can take to protect the stability of the Delta over the long 
term is to address directly the cause of climate change--the emission 
of climate changing pollution.
    The Delta ecosystem is enormously important. Tens of millions of 
Californians have a stake in its future. It is time for us to act to 
preserve it--for the future health of all of California. Thank you.
    NOTE: Attachments to Mr. Nelson's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Nelson. Mr. David Guy is the 
Executive Director of the Northern California Water 
Association. Mr. Guy, welcome to the Subcommittee, and you may 
begin your testimony.

STATEMENT OF DAVID GUY, EXECUTIVE DIRECTOR, NORTHERN CALIFORNIA 
           WATER ASSOCIATION, SACRAMENTO, CALIFORNIA

    Mr. Guy. Thank you, Mr. Chairman, and members of the 
Subcommittee, and others. It is a pleasure to be here. The 
Northern California Water Association represents the area north 
of Sacramento, from Sacramento up toward Redding, and bound on 
the east by the Sierra Nevada, and the west by the Coast Range.
    Of course, it is the are of California that has the bulk of 
the water supplies that we are now talking about, and also when 
the rains and the snows come, it is where most of the flooding 
tends to begin.
    The question about the committee is are we vulnerable, and 
of course, as I think all of your preliminary statements 
indicated, I think that the simple answer is of course yes, we 
are vulnerable in California for a variety of reasons.
    And let us first in my view talk about a couple of the 
problems, and I think they are fairly self-evident, but they 
set the stage for ultimately what the solutions might be. The 
Delta, of course, is a maze, and we are in gridlock right now 
in the Delta.
    Nothing is getting done in the Delta that will ultimately 
reduce the vulnerability that we are talking about. I think 
that is a given. With respect to flooding, the Chairman 
mentioned in his opening remarks about the floods in 1997.
    We have some very strong memories of that, because the 
Aboga Flood was in the areas that we represent, and was just 
devastating; and if you look at the history of Northern 
California, of course, there is a flood on average about every 
10 years.
    And so it really poses some problems, and I know that 
Congressman Herger brings this to your attention quite often. 
We have some real flood control problems in the north part of 
the State.
    It really leads to a conundrum though because, of course, 
in the past we built a magnificent set of bypasses in Northern 
California. We built levees that in their day were strong, and 
would meet the needs.
    And then, of course, we built storage, but yet in today's 
climate, we really cannot take any of these measures for flood 
protection, and it really leaves the question that people are 
asking around the State of California, how do we in fact 
protect the public safety.
    As far as some of the potential solutions, I think with 
respect to the Delta, the bottom line in my view is that we 
need stability in the Delta, and that stability comes in 
several forms.
    The first, of course, is the structural stability. I think 
that goes without saying. You need to have a system that is 
structurally sound, and can withstand earthquakes, and can 
withstand many of the natural catastrophes that have been 
talked about, including potentially a climate change.
    But I think in some ways the more important stability that 
we really need is political stability in the Delta, and right 
now, quite honestly, we have chaos, and that is what we need to 
find a way to sort through, because how do we create a Delta 
solution that won't work for all of California.
    In my view the through Delta solution that is now before 
the CALFED program has shown that it is not working. We need to 
step back and look at various options. Secretary Chrisman 
mentioned AB 1200 as one of the mechanisms that I believe that 
we can utilize to in fact look at the various options to avoid 
being vulnerable as you have indicated.
    From the Northern California perspective, of course, some 
would say, well, is there risk in that, and absolutely there is 
risk in that as a Northern Californian. But in my view, it is 
something that we need to take a very hard look at.
    I am confident that we can protect Northern Californians' 
water rights, and we can protect Northern California water 
supplies, and we can in fact make sure that the water quality 
in the Delta and the ecosystem is protected, but we need to 
look hard at some new and different options for the Delta.
    The second solution that I would offer, of course, goes 
without saying that we need to make investments in 
infrastructure, and that of course includes the broad range of 
infrastructure needs that we have not been pursuing in 
California over the past several decades, and which we need to 
become more aggressive about, and that includes levees, and 
that includes opportunities for off-stream storage in several 
areas.
    It includes groundwater storage, and it includes a whole 
range of infrastructure that in fact can both help with the 
water supply and the flood control perspective. And then the 
final piece that I would offer is what I call integrated 
regional solutions.
    The CALFED issues, the Delta issues, the vulnerability 
issues, are the ones that get all the headlines, but in 
California, in my view, there is a lot of good work that is 
being done on the regions, whether it is in Northern 
California, where we have a very ambitious regional water 
management program for the Sacramento Valley that is meeting 
the needs and providing a lot of ecosystems and water supply 
benefits for the region.
    Southern California has an integrated regional plan and we 
see that throughout the State, and that is where a lot of the 
excitement is going on in the State of California, and I hope 
that we will continue to foster that, while recognizing that 
the Delta is in fact what ties a lot of us together.
    And so I will leave it at that, but to me there is a 
tremendous opportunity right now in the wake of the Gulf Coast, 
and the wake of the Jones Tract, and in the wake of a lot of 
the activities going on in California, and it just feels to me 
like there is just a tremendous opportunity here to start 
making some advances.
    And I know that we sure look forward to working with the 
Subcommittee and all of you, and trying to advance some lasting 
meaningful solution for California. Thank you for the 
opportunity to be here today.
    [The prepared statement of Mr. Guy follows:]

            Statement of David J. Guy, Executive Director, 
                 Northern California Water Association

    Dear Chairman and members of the Subcommittee, my name is David 
Guy. I am the Executive Director of the Northern California Water 
Association (NCWA). We appreciate the Subcommittee convening a hearing 
today to discuss and develop solutions to address water supply 
vulnerabilities in California's Central Valley.
    NCWA is a geographically diverse organization, extending from 
California's Coast Range to the Sierra Nevada foothills, and nearly 180 
miles from Redding to Sacramento. Our members rely on the waters of the 
Sacramento, Feather, Yuba and American Rivers, smaller tributaries and 
groundwater to irrigate more than 900,000 acres that produce every type 
of food and fiber grown in the region. Many of our members also provide 
water supplies to state and federal wildlife refuges, and much of this 
land serves as important seasonal wetlands for migrating waterfowl, 
shorebirds and other wildlife. NCWA also represents the local 
governments and the business leadership in the region.
    We welcome the opportunity to provide the Northern California 
perspective on public safety and water supply security and to present 
both the opportunities and challenges we now face in California. You 
can be sure that Northern California water users, in concert with 
counties and local governments throughout the region, are committed to 
help improve public safety, water supply reliability, water quality and 
the environment.
    The Subcommittee's interest in California's water security is 
appropriate and very timely in the wake of the hurricanes along the 
Gulf Coast and given the importance of a successful resolution to the 
environmental and water supply problems in the Central Valley and 
particularly the Sacramento-San Joaquin River Delta and San Francisco 
Bay (Bay-Delta). The Bay-Delta is a tremendous economic and 
environmental resource to California and the nation, and there is much 
at stake in how we implement the numerous ecosystem restoration and 
water management actions. Put simply, people throughout California are 
vulnerable to various events in the Central Valley, including prolonged 
droughts, devastating floods, earthquakes and what appears to be a 
change in climate that may affect snow pack in the Sierra Nevada 
Mountains.
    We believe the recent California Water Plan (Draft Bulletin 160) 
provides a framework for California, with the assistance and leadership 
of Congress and the Administration, to address the vulnerabilities in 
the Sacramento/San Joaquin River systems. This framework contains two 
major initiatives--maintaining statewide water systems and empowering 
regional solutions--that we encourage the Subcommittee to support.

Maintain Statewide Water Systems
    California depends on vast statewide water management systems to 
provide clean and reliable water supplies, protect lives and property 
from flood, withstand drought and sustain environmental values. A 
significant part of California relies on the Bay-Delta system for its 
water supplies. As a result, California needs stability in the Delta. 
This stability should include structural stability, such as the 
integrity of Delta levees in the face of earthquakes or tidal action, 
and it will require political stability with respect to the way in 
which water flows through the Delta. Although most of Northern 
California does not divert water from the Delta, we recognize the 
importance of the Delta for water supplies throughout the State and 
support efforts to solve the water supply and environmental issues in 
the Delta.
    After 11 years, it is clear that there is little confidence in the 
Bay-Delta solution being discussed as part of the CALFED program. Most 
importantly, we need a sustainable solution to the public safety and 
water supply issues in the Delta. There is a tremendous opportunity to 
focus on the Bay-Delta and to undertake a new evaluation of various 
options that will protect Northern California water rights and 
supplies, enhance the environment, and improve water supplies and 
quality derived from the Bay-Delta. This, in turn, will provide 
stability in the Bay-Delta and decrease vulnerability throughout 
California.
    Additionally, California needs an aggressive investment in the 
State's flood management system and changes in the way we think about 
flood management to fully protect public safety. Northern California 
has always experienced devastating floods, including the most recent 
flooding in early January 1997. High winter and spring flows, coupled 
with the fact that many of the rivers in Northern California serve as 
water conveyance facilities for the rest of the state, makes flood 
protection critical for public safety to protect the citizens and 
property in Northern California.
    Integrating both surface and groundwater storage programs into the 
existing statewide water system can help California assure public 
safety and increase the water supplies available for all purposes in 
California, including cities, farms wildlife refuges and managed 
wetlands and fish. In the Sacramento Valley, for example, North of 
Delta Offstream Storage (Sites) could be integrated with the existing 
system to provide additional flood control at Lake Shasta and to 
provide valuable water for the Delta during critical times for fish, 
birds, cities and farms.

Empower Integrated Regional Water Management Programs
    Regional planning and the implementation of strategies that are 
developed by leaders in the various regions throughout the state are 
critical to meet the various water supply needs in California. Most 
importantly, regional strategies build on the successful efforts that 
have been undertaken or are underway throughout a region to meet water 
supply, water quality and ecosystem objectives at the regional and 
local level. California is a diverse state where complex water policy 
decisions are difficult to fashion in a manner that allows a simple 
solution to fit problems that may exist in various regions across the 
state. As a consequence, regionally based policies and programs are the 
most effective and cost effective way to integrate the various water 
rights and supplies for a particular region and to undertake the 
efforts necessary to improve water quality and the ecosystem. We 
therefore support empowering regional solutions and partnerships 
throughout the state to help serve California's total water needs. We 
believe California can best advance the broad interests of the state by 
helping to fulfill the promise of regional programs and integrated 
water management.
    By implementing these management strategies, regions can plan, 
invest, and diversify their water portfolios. These strategies will 
help a region become more self-sufficient with local supplies and will 
minimize conflicts with other resource management efforts. NCWA and the 
Northern California water users have embarked on an integrated water 
management program that has broad support from water suppliers and 
local governments throughout Northern California. The Sacramento Valley 
has been developing an Integrated Regional Water Management Plan 
(IRWMP) to meet local needs and to increase both the flexibility of the 
water system and the water available for multiple uses in the 
Sacramento Valley and other areas of the state. This integrated program 
includes fish passage improvements (fish screens and siphons), 
groundwater management, environmental water programs, water quality 
improvements, evaluation of the Sites off-stream reservoir, flood 
protection, water use efficiency programs, intra-regional water 
transfers and exchanges, and watershed management.
    Thank you for the opportunity to testify before the Subcommittee 
today. If you have any questions or would like to discuss this further, 
please call me at 916.442.8333.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Guy, for your valuable 
testimony. Mr. Dennis Majors is Program Manager for the 
Metropolitan Water District of Southern California. Mr. Majors, 
welcome to the Subcommittee. You may begin your testimony.

STATEMENT OF DENNIS MAJORS, PROGRAM MANAGER, METROPOLITAN WATER 
    DISTRICT OF SOUTHERN CALIFORNIA, LOS ANGELES, CALIFORNIA

    Mr. Majors. Thank you, Mr. Chairman. At Metropolitan, I 
guide CALFED efforts to achieve and improve water quality and 
water supply, particularly at the Delta export facilities.
    I will give an overview today of Delta issues, and I will 
summarize what I think are reasonable emergency, near term and 
long term, strategies. And then I will highlight what 
Metropolitan is doing to avert problems that might come out of 
an actual Delta levees outage.
    And finally, I will point out what seem to be possible 
Federal roles here. Now, we have seen a keen awareness of the 
critical issues in the Delta. Subsidence is happening up to a 
maximum of 30 feet in certain areas.
    Overlying that is a network of eleven hundred miles of 
levees, which are protecting major infrastructure, as well as 
the water passing through the Delta. So it is kind of a recipe 
for something to happen pretty bad.
    Approximately 162 levee breaches occurred in the past 
century, and 11 have occurred in the western Delta and central 
Delta, which is the critical subsidence area, and that is what 
has the greatest problem from our standpoint.
    Breaches in the western Delta can result in large 
quantities of salt water being drawn into Sherman and Twitchell 
Islands, and when that happens, it just pulls the salinity from 
Sansume Bay directly toward our pumps. So that is a major 
concern.
    But also major levees breaks interior to the Delta tend to 
suck a great amount of water into the south Delta, and we can't 
get that salt out of there through normal releases through our 
reservoirs. So you can see the types of problems.
    Now, DWR predicts a hundred year earthquake would initially 
trigger 3 to 10 levee breaches on one or more Delta islands. 
Let me give you a comparison. An earthquake causing this type 
of damage to Delta levees would most likely be in the magnitude 
of 6 to 6.5 Richter range, and would result from faults either 
near to or directly under the western Delta.
    A one in one hundred chance of failure means that the risk 
that we face in the Delta is orders of magnitude higher than 
the level of risk that we find acceptable for any major 
infrastructure.
    Now, progressive failures following an earthquake could 
lead to more widespread damage, and you saw a bit of that in 
Jones Tract last year, where the island flooded, but then it 
moved right over to the unarmored levees on the inside of Jones 
Tract near Trapper Slew, and almost took out Trapper Slew.
    And if that had happened, water would start marching toward 
Stockton. So these are major problems, and we need to be 
strategic in how we analyze it. It is crucial, we think, to 
have things like where the State has talked about a central 
regional flood response center which might co-locate Federal, 
State, and local commands in one location, and be just 
essentially a fluid overall command.
    And in catastrophic events, we could see command escalating 
up to State or Federal level. We think we need to see that and 
have a plan for that. It is crucial to have adequate standby 
emergency contracting capability, and prepositioned materials 
and equipment in the Delta, and I will give you an idea of what 
that can do.
    You may be able to move in and actually stop a levee breach 
when it can occur, but we actually have the ability to model. 
If we know where the breach is at, we can see where the salt is 
flowing, and then at critical predetermined locations, we might 
be able to actually stop through a barge or some kind of fill, 
and keep salinity from marching through a particular channel by 
closing it in the Delta.
    So there are things that can be done, and we think that 
those need to be looked at. At Sherman Island, they talked 
about the great amount of water that can be pulled through that 
area in the event of a breach.
    Converting Sherman and Twitchell Island. Now, they are 
owned by the State Water Project, and we are half of the State 
Water Project. So breaches at these locations are things that 
are caused by or draw tremendous water in because the land is 
so subsided.
    So we feel that alternative farming practices that spread 
water over the land are important to arrest subsidence, and 
things like rice farming or other practices are probably 
appropriate.
    I heard the Delta risk management strategy talked about, 
and we think that is a great idea. It is a joint effort of DWR 
and the Corps. It evaluates hazard and system conditions 
together, and it has the ability to look at fixes both inside 
and outside the Delta on a probabilistic basis.
    A recent exercise that DWR performed showed that in a 50 
breach levee break event in the Delta, what the consequences 
would be. But we think that is only part of the picture.
    Following breaches of the levees, we see progressive 
failures occurring which are quite plausible through strong 
Delta winds, wave action, and then erosion. So we are concerned 
about that.
    But in that analysis, what is critical to Metropolitan is 
the amount of time to repair all of these breaches, because in 
the meantime, we either are partially or totally shut down on 
our experts. So that is a real problem.
    This determines how much emergency storage we need to have 
in Southern California, but I wanted to give an idea. 
Metropolitan, about 10 years ago, recognized these kinds of 
problems.
    We placed strong emphasis on the development of enhanced 
storage, and more storage in Southern California, and in fact, 
we have increased our storage almost tenfold in the past 
decade.
    So if that total outage was to occur, we would start 
pulling on about a 1.7 million acre feet of water for 
emergency, and we would even pull on our drought storage. That 
might last 2 to 3 years. So it just points out that it is 
critical to have real scenarios to fix those levees as you 
proceed.
    So I think the summary is that we heard the word strategic, 
and I think that is important, not only for emergencies, but 
near term and future actions, fine tuning our capabilities.
    Federal and State legislation could be required to grant 
additional authority. Federal authorization and appropriation 
might--in addition to CALFED authorization, might best be 
considered under the Water Resources Development Act, with 
expanded Federal flood control responsibility.
    I have noted that a greater emergency response role at the 
Federal level may be required, and I guess in the end, I would 
say that it seems like the Katrina disaster has kind of focused 
things, and we may have a limited period of time when so much 
attention will be focused no this issue in order to enhance our 
capabilities to respond, and I think we feed that a timely 
action is important.
    [The prepared statement of Mr. Majors follows:]

            Statement of Dennis G. Majors, Program Manager, 
           Metropolitan Water District of Southern California

    I am a Program Manager with the Metropolitan Water District of 
Southern California, with responsibilities for guiding the 
implementation of the CALFED Program to achieve improved water quality 
and water supplies from Delta export operations. From 2000 to 2002, I 
was CALFED's Delta Implementation Manager, where I became knowledgeable 
of Delta levees remediation issues as they relate to the water supply 
and quality at State Water Project (SWP) and Central Valley Project 
(CVP) export facilities and the implementation of CALFED Through Delta 
solution (Figure1).
    This testimony covers the water supply and quality vulnerabilities 
in the Sacramento/San Joaquin Delta focusing on the water quality and 
supply effects at CVP and SWP export facilities, needed emergency 
response capabilities and any near-term and long-terms strategies which 
can be employed to adequately safeguard these water resources.

Strategic Overview
    The Metropolitan Water District has focused increased attention on 
the vulnerability of the Delta levees system over the past year. The 
recent events in New Orleans have heightened our awareness and renewed 
interest of our Board of Directors on this critical issue, particularly 
the adequacy of emergency, short-term and long-term governmental 
response. It is well known that Delta islands, drained for agriculture 
in the late 1800's, have subsided up to 30 feet though the oxidation of 
peat soils in critical portions of the western and central Delta. A 
system of more than 1,100 miles of levees protect major utilities, 
highways, and railroads and convey fresh water southerly to state and 
federal export pumps. The most problematic areas remain in the western 
and central Delta, where peat soil subsidence is greatest, levee 
designs and maintenance practices are varied and 11 levee breaks have 
occurred since 1960 (Figure 2). Overall, 162 levee breaches have 
occurred throughout the Delta in the past century.
    Levee breaches in the western Delta can result in an extremely 
large volume of salt water being drawn from Suisun Bay into subsided 
islands like Sherman and Twitchell, moving higher salinity 
concentrations toward the export pumps. Unabated, subsidence on these 
islands will advance from a total of 30 feet today to more than 80 feet 
when all peat is depleted, exacerbating potential flooding and salinity 
problems. Significantly, multiple levees breaks in the central and 
southern portions of the Delta draws salt water into south Delta areas, 
which cannot be easily flushed seaward through the normal fresh water 
releases from upstream reservoirs.
    ``Project'' levees make up about one-third of the system, which are 
designed, built and maintained by the Corps of Engineers. ``Non-
Project'' levees make up about two-thirds of the system, and are built 
to varying standards of design, maintained by local Reclamation 
Districts (RD's) and situated generally in the most vulnerable areas of 
the Delta with respect to subsidence and adverse consequences of 
failure. A small fraction of the levees are privately owned.
    Disruption of the levees system by earthquakes or other hazards 
could potentially trigger a progression of failures in the Delta levees 
system that would have serious consequences on Metropolitan's drinking 
water supply, since on average the SWP provides more than half of the 
supplies available to Metropolitan.
    A strategic approach to emergency response, and short- and long-
term actions to avert or minimize the impact of levees failure is 
critical. From a levees integrity standpoint, there must be a logical 
connection to the proposed CALFED Through Delta solution, which relies 
on the integrity of Delta levees for the delivery of high quality water 
to export pumps.
    Under the DWR Subventions Program, established by the state in 
1988, Reclamation Districts maintain, repair, restore their levees, and 
receive reimbursement through bond or other funds to protect island 
properties. This program is not specifically aimed at providing 
strategic benefits to export water quality and supply. The DWR Special 
Projects Program is specifically established to focus on critical levee 
problems, but needs strategic direction to be properly implemented.
    However, a process is emerging to reduce major risks in the short-
term and develop longer-term strategies to fund levee improvements, 
which benefit export water quality and supply interests. A number of 
strategies are being embedded in the existing response system, and 
support is beginning to coalesce around new initiatives.

Emergency Response
    DWR predicts a 100-year earthquake would initially trigger the 
breach of 3 to 10 levees on one or more Delta islands (Figure 3). For 
comparison, earthquakes causing this type of damage and failure to 
Delta levees would most likely be in magnitude 6 to 6.5 Richter range, 
either close to, or actually beneath the western Delta. Based on the 
progressive damage to the unarmored inside face of levees at Jones 
Tract (at Trapper Slough opposite the main Jones Tract breach), there 
is a major concern that that these seismically induced breaches will 
result in a broader failure of the Delta levee system through wave 
action from high Delta winds and erosion within the islands being 
flooded. The effective emergency response at Trapper Slough avoided 
further flooding of the adjacent tracts toward Stockton. Probability 
analysis reflecting a 1-in-100 chance of failure of the Delta levee 
system means that the risk we face in the Delta is orders of magnitude 
higher than the level of risk we find acceptable for other major 
infrastructure and critical facilities.
    Impending levee failures require rapid response to prevent 
permanent damage and avert progressive damages leading to serious 
degradation to export water quality and supply. The following are some 
potential areas that Metropolitan could support.
    Emergency response is now coordinated though a DWR Delta Area 
Command, linked to the state's Standardized Emergency Response System. 
However, DWR is evaluating and we support a Central Regional Flood 
Response Center in order to:
    <bullet>  Develop a central command, co-located in a common 
facility, to facilitate assignment of commands and coordinate 
operations among the federal, state and local agencies; this would 
force rapid approvals and clearances and save time in advancing 
emergency response measures.
    <bullet>  Establish a pre-set list of trigger points to ensure that 
the assignment of authorities moves efficiently from local, to state 
and federal levels, depending on the severity of the emergency.
    <bullet>  Allow command in catastrophic events to expeditiously 
escalate, if necessary to the federal level.
    Federal and state legislation could be required to grant greater 
authority to respond to such crises. These should be explored and 
appropriate legislative approaches taken.
    Particularly, we could support measures to reduce the time 
responding to an impending or actual emergency by:
    <bullet>  Establishing emergency contracting capability with 
private construction firms to respond immediately in the event of a 
levee breach or similar situation.
    <bullet>  Substantially augmenting rock stockpiles and equipment 
throughout the Delta to ensure rapid response to close a breached levee 
or selected river channels at pre-determined locations; pre-positioned 
rock stockpiles or barges to achieve temporarily closure could avert 
the most serious damage and limit salinity intrusion toward the pumps.
    <bullet>  Establish real-time modeling capability with up to date 
hydrologic data and breach locations to help predict the salinity 
effects of levee breaches and guide strategic channel closures to 
minimize salinity intrusion into the Delta.

Near-Term Strategies
    There are deliberate steps that we believe can be accomplished in 2 
to 5 years beginning with a comprehensive inventory to identify the 
levee design standards throughout the entire Delta levees system. This 
would identify high-risk areas and focus immediate attention. For 
example, at the State Water Project-owed Sherman and Twitchell Islands, 
significant soil subsidence caused by farming operations aggravates the 
risks caused varied levee designs. As note earlier, flooding of these 
islands would draw large volumes of salt water into the islands toward 
the export pumps. Here, farming leases managed by DWR need to be 
converted to farming practices which spread water over the islands most 
months the year. Rice farming or other practices may be appropriate. 
Where not already constructed as such, levees should be modified to 
include toe berms or other stability measures under acceptable design 
standards, making them less vulnerable to failure under ground shaking, 
floodwaters or other hazards.
    Measures should developed in the short-term to better develop 
emergency response capability, such as:
    <bullet>  Improved levee instrumentation, inspection program, and 
real-time monitoring.
    <bullet>  A fully developed emergency breach closure and real time 
modeling capability to help guide emergency operations to limit 
salinity intrusion.
    <bullet>  Acquisition of island lands that provide sufficient soil, 
sand and gravel as a ready stockpile for any scale of emergency.
    The Small Projects Authority Program, administered by the Army 
Corps of Engineers, is ideally suited for post-disaster repairs, 
maintaining the repaired levee integrity until more permanent repairs 
can be implemented, or repairing smaller levee problems that could get 
worse if left unattended.

Long-Term Strategies
    A systematic process is now being undertaken to look at the 
consequences of different types of failures in economic terms. 
Alternative actions can then be taken and measured economically. Here 
is a long-term approach we would support, that could be accomplished in 
5 to 15 years:

Delta Risk Management Strategy
    An ambitious federal-state process now underway is called the Delta 
Risk Management Strategy (DRMS). This is a joint effort of the 
Department of Water Resources and the Army Corps of Engineers, with 
assistance from other agencies. It evaluates both hazards and system 
operational conditions in combination to determine the economic 
consequences of levee failures in the Delta and downstream. The 
following steps are taken to determine the most cost effective approach 
using DRMS:
    <bullet>  Statistically, develop an envelop of economic 
consequences resulting from multiple combinations of hazards and system 
conditions.
    <bullet>  Develop alternative remedial actions both inside and 
outside of the Delta.
    <bullet>  Determine the change in economic consequences (benefits) 
that results from applying a particular remedial action.
    <bullet>  Determine the most cost effective remedial action as an 
overall strategic approach.
    A number of strategies can be evaluated by the DRMS process both 
inside and outside the Delta. Any alternative must ensure a reliable 
long-term Delta conveyance system, which is critical to the delivery of 
CVP and SWP allocations and water transfers. The following alternative 
strategies can be evaluated from an economic perspective using the 
DRMS:
    <bullet>  The Though Delta solution considered in the CALFED Bay 
Delta Program EIR/S, including the North Delta Flood Control program.
    <bullet>  Modified land use practices or acquisitions at 
strategically identified islands, along with necessary levees 
remediation, within the highly subsided western and central Delta.
    <bullet>  Pre-positioned and enhanced downstream groundwater and 
surface storage; Metropolitan has aggressively pursued these strategies 
by increasing its storage more than 10-fold over the past decade, in 
part to guard against emergency events.
    Should additional federal authorization and appropriations be 
required, beyond the CALFED authorization, such authority may be 
considered under the Water Resources Development Act with expanded 
federal flood control responsibility; a greater emergency response role 
at the federal level may be appropriate as borne out by the recent New 
Orleans event.

Metropolitan Response
    DWR and UC Berkeley studies indicate that from 3 to 10 breaches of 
the Delta levees system would statistically occur in a 100-year 
earthquake event. This would have the likely follow-on effect of 
multiple breaches caused by repeat episodes of wave action from strong 
Delta winds and erosion. It is unknown how extensive this type of 
failure scenario would be, however the progressive erosion on the 
inside levee face at Jones Tract, noted above, tends to substantiate 
the reality of this scenario. The extent of these types of scenarios 
would be determined in a statistical sense under the Delta Risk 
Management Strategy.
    In a recent exercise, DWR performed multiple levee breach scenarios 
that assessed the consequences of 30- and 50- breaches in the Delta. 
Critical to Metropolitan is how long the levee repair actions would 
take and under what conditions export operations could resume. This 
determines the extent that emergency storage in the Metropolitan 
service area has to be utilized, as noted below.
    In part to deal with these types of disasters, Metropolitan has 
increased its surface and groundwater storage substantially in the past 
decade. Total southern California surface and groundwater storage is 
currently about 2.8 MAF, of which about 1.7 MAF is available for 
emergency and non-emergency (carryover) purposes. In an emergency, such 
as a multiple-levee breach in the Delta, Metropolitan would draw upon 
both emergency and non emergency (carryover) storage at the rate of 
about 550 TAF per year. This could continue for 2 to 3 years depending 
on hydrologic conditions while remediation measures were taken in the 
Delta and SWP supplied were being restored. DWR has estimated that a 
``worst case'' 50-breach scenario may take around two years to repair. 
It is, therefore, crucial that proper attention be given to levee 
repair protocols and emergency powers capabilities to complete levee 
remediation work as quickly as possible.

Summary
    The water supply and quality vulnerabilities in the Sacramento/San 
Joaquin Delta can seriously affect the CVP and SWP exports. DWR 
predicts a 100-year earthquake, equivalent to a magnitude 6 to 6.5 
Richter range, either close to or actually beneath the Western Delta, 
would breach 3 to 10 levees on one or more Delta islands. Progressive 
levee failures, initiated under this seismic event, could lead to more 
wide spread failures and damages. The impact to southern California 
would be significant since on average the SWP provides more than half 
of the supplies available to Metropolitan.
    Emergency response capabilities, as well as near-term and long-
terms strategies need to be modified and fine-tuned to adequately 
safeguard affected water resources. Pre-positioned materials and 
equipment could aid in closing beached levees or strategically restrict 
river channels before widespread damage occurs or adverse salinity 
intrusion takes place. Near-term remedial actions at Sherman and 
Twitchell Islands could significantly reduce overall risk to water 
quality and supplies at export pumps. Long-term strategies guided by 
the ongoing Delta Risk Management Strategy could identify cost 
effective actions to reduce economic risk and the potential for loss of 
life. Clearly, the recent events in New Orleans have heightened our 
awareness and renewed our interest in this critical problem on the west 
coast.
    A Central Regional Flood Response Center, co-located in a common 
facility, could facilitate assignment of commands and emergency 
operations among the federal, state and local agencies in catastrophic 
events. Overall command could expeditiously escalate, if necessary, to 
the federal level.
    Expanded federal and state authorities may be needed to respond to 
the scale of emergency operations anticipated in the Delta. As well, 
new federal and state legislation may be required for equivalent level 
response, including potential authorizations and appropriations under 
the Water Resources Development Act. The current Small Projects 
Authority Program, administered by the Army Corps of Engineers, may 
also be well suited for post-disaster repairs.
    Metropolitan has anticipated these types of emergency scenarios 
that may occur in the Delta region and placed significant emphasis on 
the development of enhanced storage accessible to the Metropolitan to 
serve these and other purposes. Accessible surface and groundwater 
storage has been increased ten-fold in the past decade, making nearly 
1.7 MAF available for emergency and non-emergency (carryover) purposes, 
which would be drawn on under these type events. While these emergency 
supplies would last 2 to 3 years, it is crucial that proper attention 
be given to levee repair protocols and emergency powers capabilities to 
complete Delta levees remediation work as quickly as possible.
                                 ______
                                 

    [Attachments to Mr. Majors' statement follow:]

    [GRAPHIC] [TIFF OMITTED] T4348.009
    
    [GRAPHIC] [TIFF OMITTED] T4348.010
    
    [GRAPHIC] [TIFF OMITTED] T4348.011
    
    Mr. Radanovich. Thank you, Mr. Majors, for your testimony. 
I will now open up the panel for questions from the dais. I am 
going to go ahead and start, and state that many of us were a 
witness via television to the disaster in Louisiana, and after 
the hurricane hit, the levees broke, and it seemed like forever 
before they were able to get the equipment in to begin plugging 
up the holes in the levee.
    I understand that this was a situation where they had many 
days of warnings to get ready for and still were not ready for, 
and in a situation in California, you might have some warning 
through increasing rainfall, causing flood problems.
    You certainly would not get a warning from an earthquake 
and the damage that might cause. I want to open up this 
question to the entire panel. Tell me. Are we due to be 
managing this problem worse than New Orleans did with the post-
hurricane, and the failure of the levees; or is there any way 
that we could be in shape in order to deal with this thing 
swiftly and effectively?
    Mr. Chrisman. Mr. Chairman, if I might.
    Mr. Radanovich. Mr. Chrisman.
    Mr. Chrisman. We in California have what we call the 
Instant Command System in place for major emergencies, and 
again it is major emergencies for earthquakes, for fires, for 
most natural disasters, and that is an integrated Federal, 
State, and local response system in place.
    So when, for instance, earthquakes happen, there are 
already predetermined responsibilities for specific localities, 
and specific Federal, and mainly State, and local entities to 
kick in and to begin to help in the activities surround the 
emergencies.
    So our system, quite frankly, is a well-defined system. In 
fact, we sent to the Katrina disaster, we sent in the 
neighborhood of 55 of our California Department of Forestry 
Incident Command Specialists down to Louisiana to begin to help 
them put--and of course this was after the fact, but help them 
put an Instant Command Response System in place, much like the 
one that we have in California.
    So we can always do better, and every major disaster that 
we have in California, there is always an after the fact 
assessment of how did we do, and what did we do wrong, and how 
do we need to do better, and how did the specific responsible 
agencies respond, and did they respond in a timely manner.
    So those types of questions, and so we are constantly 
improving the process that we have in California. So we think 
we are ready, but we can probably never be too ready, but we 
think we are ready.
    Mr. Radanovich. Thank you, Mr. Secretary. Would anybody 
else care to respond to that?
    Mr. Neudeck. Yes, I have one response, or actually two. 
One, with resources, and the other with the debate on whether 
or not we need to move forward. I think that Secretary Chrisman 
is correct. We do have an excellent emergency response program 
in place.
    But the question is if a Delta island levee breaks, do you 
repair it. That very question was asked with Jones Tract. We 
are all sitting here today at the repaired levee. Fortunately, 
our Governor flew in Saturday morning after a Thursday break, 
and made that happen.
    We were debating whether or not that was necessary. We 
can't do that. We can't run that risk. The second thing, and 
just reality, because of the Endangered Species Act, we only 
have work windows that open between August and October.
    That means that is the only time we can do in-water work. 
The problem with that is that our resources are moving out of 
the region because they cannot support water borne equipment 
for only working three months out of the year.
    So we are left with very few water borne pieces of 
equipment that are available. Now, I think if we had a major 
disaster, we could draw them from other areas, but that is a 
fact to consider. Thank you.
    Mr. Radanovich. Thank you. Any others wishing to respond?
    Mr. Guy. I would just say that there is a couple of islands 
from a real practical standpoint out on the western Delta, 
Sherman and Twitchell, and we probably could take those out of 
the equation pretty quickly here by changing land use practices 
there and stop subsidence.
    That does a lot for us for water moving in on the western 
Delta, but I would point out again that it appears that you 
might have a tactical method here for actually curtailing 
salinity intrusion in the event of major breaks of the Delta, 
and it could be done by great readiness and the ability to go 
in at predetermined locations and literally through modeling 
and understanding where the salt is moving, and stopping the 
salinity flow.
    So this thing gets away from you pretty quick as we see it 
with an initial earthquake, and we see it getting away from you 
pretty quick in multiple breaks.
    Mr. Radanovich. Thank you. I am going to ask one more 
question and then we will go to the next folks here. Now, a lot 
of levee studies are going on, and I understand that the Corps 
has to do a study, a 180 day Delta levee study, before any 
CALFED money can be spent on the levees.
    In your estimation, with so many studies out there, can the 
Corps assemble this study with the existing information? Can 
they do it themselves? Are they the ones to get their hands 
around this issue?
    Mr. Chrisman. Well, absolutely. You know, I think that in 
my comments, I made the point that their authority is unclear 
with respect to responding to emergencies like this. But they 
have the capability. I mean, they have shown that they have the 
capability, and you will hear from the General here soon in the 
next panel that comes up here.
    But in my view, absolutely. They have shown to us over 
time, time and time again, that they are good partners in this 
effort. Again, a little clarification from Federal statutes is 
what I think would help us in this process, and would help them 
in terms of responding quicker to help in these activities.
    So the will is there certainly, and the knowledge is there. 
I just think that we need a little bit more clarity in terms of 
the Federal statute.
    Mr. Radanovich. Thank you. Anybody else wish to respond? 
All right. Thank you very much. I ask unanimous consent that 
the gentlemen from California, Mr. Nunes, Mr. Herger, and Mr. 
Doolittle, be allowed to join us on the dais, and participate 
in today's hearing. Hearing no objections, it is so ordered. 
Grace, do you have questions?
    Mrs. Napolitano. Well, I just wanted to ensure, Mr. 
Chairman, that the Delta Action Bill for 2005 be introduced 
into the record. That is the one that was just referred to as 
coming to us.
    Mr. Radanovich. Today.
    Mrs. Napolitano. We have secured a copy off the web.
    Mr. Radanovich. Great. There being no objection, it is so 
ordered.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mr. Radanovich. If the gentle lady will yield, I will say 
that I want to hold each member to five minutes for questions, 
but we will go around as many times as needed to get all the 
questions asked and answered. So, Grace, thank you.
    Mrs. Napolitano. Thank you, Mr. Chair. I have a lot of 
questions, and I hope that I will be able to get all of my 
queries somehow answered. One of them has to do with--and this 
is nothing with what has been discussed, but the fact that a 
2005 study done by the State of California showed that the 
State is at considerable risk in the event of an earthquake 
leads to levee failures, and it goes on. This is on page 3 of a 
report to me.
    And that in addition, salts from seawater, combined with 
Delta carbon sources, to form potential causing or cancer 
causing substances. None of you have addressed that. Is there 
any information that you can give this panel, or I mean this 
body, in regard to any findings that you may have, or anything 
that has come up in your reports or submissions that we can 
address? Mr. Majors.
    Mr. Majors. If I could just offer that when Jones Tract 
broke, the TOCs total organic carbons, we saw a spike in that. 
We saw increases in algae in some of our receding reservoirs in 
Southern California.
    And in fact, we are studying what we think at one of our 
reservoirs where they actually had to stop operations and 
bypass it for a period of time due to TOCs. So that is a 
particular problem from our standpoint.
    Mrs. Napolitano. Well, may I suggest then that as you are 
moving forward, gentlemen, the panel, that you consider this as 
part of one of the things that you need to consider as an 
issue, as it will affect the water quality of Southern 
California.
    To Mr. Chrisman, thank you for spending some time with me, 
Mr. Secretary. Do the local reclamation boards have the 
financial ability to adequately respond to catastrophic 
failures of the levee system, and do they have their own crews 
and equipment, and further, do they have financial reserves 
that they will need?
    Mr. Chrisman. The local reclamation districts that oversee 
the districts?
    Mrs. Napolitano. Correct.
    Mr. Chrisman. The answer is probably no to all of your 
questions, and it is not that the desire isn't there. Mr. 
Neudeck indicated in his comments the financial capabilities of 
each of these districts, and the fact that the answer to your 
question is no doesn't mean that we don't address these issues, 
and that is what I think this hearing is about.
    We did it in Jones Tract, and I think there is two 
reclamation districts that were involved in the Jones Tract 
levee break, and clearly ran out of resources early on in this 
process. The State stepped in and made them whole.
    And again that is why we need the strategic look at the 
Delta levees themselves, because we need to ask some questions 
about those 60 plus islands in the Delta, and the levees, and 
we need to ask some serious questions about them, and to what 
extent do they need to be restored, and to what extent do the 
levees and where the levees need to be restored, and what are 
the highest priorities.
    So again it goes to the partnerships that we are going to 
have to create out of these conversations. So going back to 
your original question, the local reclamation districts do not 
have the resources.
    But working together with our State and Federal partners, 
we think the resources can be there.
    Mrs. Napolitano. Then, Mr. Secretary, that begs the 
question, why was all this not addressed in CALFED's bill?
    Mr. Chrisman. Which bill?
    Mrs. Napolitano. The CALFED bill that was passed last year, 
and that was funded out of this committee.
    Mr. Chrisman. Senator Feinstein's bill, the bill that 
passed?
    Mrs. Napolitano. Yes.
    Mr. Chrisman. Well, again, improvement in the Deltas is 
part of the CALFED program, and again, it is a Federal and 
State partnership. Levees and flood protection, are one part of 
the overall program of CALFED.
    Again, it has to do with the availability of dollars, and 
again it has to do with priorities in programs. The Federal 
Government, through your good work here, have stepped up and 
are good partners in that process. I mean, we think we have--we 
can be faulted, I think, over the long haul at the State level, 
and we provided the dollars.
    But, you know, budget shortages created us funding some of 
these programs less than we would have liked to have funded 
them to be honest with you. But at the end of the day that 
doesn't mean they are any less of a priority for us, and it 
should be for all of us in correcting some of these issues.
    Mrs. Napolitano. Understood, but one of the comments made 
in some of the testimony was that the Feds have done nothing 
but study. Well, with all the studies, it has been reported 
that whether the State, or the Feds, or the locals, has there 
been any comprehensive attempt at looking at the overall health 
of the levees, and what it would need? Because I have seen some 
figures that refer to the Sacramento Area Flood Control Agency 
figures is one billion, and the Department of Water Resources 
estimates in its January report two billion. Has there been any 
addressing of the total needs assessment, and how we are going 
to be able to put all of our marbles into the one basket and 
work together as you say collaboratively?
    Mr. Chrisman. Again, we talked about the levees in the 
Delta, and this Delta Risk Management Study that we are 
involved is going to be doing just that. We are in the process 
of doing that and prioritizing levees.
    Mrs. Napolitano. But it has not been done before is the 
answer?
    Mr. Chrisman. Well, we are working with the Sacramento Area 
Flood Control Association or group, and they are in the process 
of doing just that, and we are working with the Army Corps of 
Engineers in that process.
    The Governor submitted a letter to Senator Feinstein, and 
Congressman Pombo, and which I think is a part of the record, 
that highlighted where those priorities, those quick fixes, 
those priorities that we already know need to be corrected. 
That is already a matter of record.
    We all agree that there is some projects and programs that 
we can begin right now to correct some of those deficiencies in 
those Deltas, in the Delta, and in the Sacramento-San Joaquin 
area. Again, the challenge is priorities and money.
    Mrs. Napolitano. Again, the question was whether there has 
been an attempt in organizing all of it so we can understand.
    Mr. Chrisman. Yes.
    Mrs. Napolitano. And the report has been where?
    Mr. Chrisman. The report?
    Mrs. Napolitano. To this committee, to the world, about the 
status of the levees, of the Delta levees, and how we can as a 
coordinated group be able to help solve all of the above 
problems? We are talking about band-aid approaches.
    Mr. Chrisman. No, we are not talking about band-aid 
approaches.
    Mrs. Napolitano. No, no, there have been band-aid 
approaches, Mr. Secretary.
    Mr. Chrisman. Oh, I see. Yes.
    Mrs. Napolitano. OK. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Lungren.
    Mr. Lungren. Thank you very much, Mr. Chairman. I thank you 
all for your testimony and the work that you have done. It is 
extremely important for us to focus on the specific projects 
for the levees, but it is also important for us to think a 
little upstream to make sure that we don't forget about the 
work that needs to be done on the dams as well.
    And since I happen to live downstream from Folsom Dam, I 
have a little concern. I have a boat on my second story just in 
case we have any problems. It is going to be a long fast ride, 
I will tell you that.
    My question is this. Can you articulate--those of you on 
the panel, can you articulate--sometimes we need to know the 
dimensions of the problem in stark terms, so we can get the 
public support for what needs to be done?
    We have talked about--I mean, it has been evident on 
television on what happened in New Orleans. What are we talking 
about in terms of the Delta? What are we talking about in terms 
of the Sacramento region?
    What are we actually talking in terms of what would 
confront us if we don't get about the business of improving 
these levees, and doing modifications that we need to do 
upstream?
    Because as long as we talk here, we know what we are 
talking about, and we are talking about in a foreign language 
compared to folks back home. And politically the biggest need 
we have is to have the political will to do the things that 
need to be done.
    So what are we talking about in terms of the damage to be 
done in loss of life and/or property, and our water supply?
    Mr. Neudeck. Well, I will start just with the Delta itself. 
I was partly responsible for the estimates that were put 
together for the CALFED, and just for the delta, and not 
upstream of the San Joaquin or Sacramento system.
    And in that estimate, you hear a billion dollars being 
thrown about quite a bit. That estimate was actually $600 
million to a billion, and that is the estimate that we have 
been working toward to reconstruct the levees to the base level 
protection, PLA8499, and that was in the bill that was passed 
out of this committee and that the Congressman was just 
speaking about.
    That was actually one of the features of the bill, was to 
put money toward that base level protection. That is where the 
$600 million to a billion came from. Now, I need to turn to my 
colleagues here to tell you what other estimates would be 
upstream to both Sacramento and San Joaquin.
    Mr. Chrisman. Let me if I might. In my written testimony, I 
highlighted some of those issues for you, for the members, 
Congressman. But let me relate some of them to you.
    In the Sacramento and San Joaquin Delta, it is the home to 
about 400,000 people. It has vital port facilities, and major 
highways, and railroads, as well as State and Federal water 
projects that provide drinking water for 22 million people in 
California.
    That is approaching one-tenth of the entire United States 
population, and 7 million acres of irrigated land. That 
includes about 60 islands and tracts that are below sea level 
in the Delta.
    If you think about earthquakes, Congressman Cardoza talked 
about earthquakes in some of his early questions, or in his 
early comments. They are as we know very common in California.
    It has been estimated that a 6.5 magnitude earthquake on 
the coast range in the Center Valley fault--and of course that 
is a fault that kind of meanders around under the west Delta,--
would produce more than 30 levee breaches on 16 different 
islands.
    Levee breaks--and this has been alluded to in some of the 
previous comments, but levee breaks would draw salt water into 
the Delta from the Sacramento Bay, shutting down the State 
water project, and the Central Valley project, and damage to 
State highways.
    The environmental damage to that very, very valuable Delta 
ecosystem and estuary would be absolutely devastating. Those 
are a few of the examples that we laid out in some of the 
estimates that we have made in some of the early conversations.
    Mr. Nelson. If I could, we have a long history of small 
scale frankly, relatively small scale levee failures in 
California that have been repaired, and this has been happening 
for well over a hundred years.
    And generally speaking, those levees have been repairable. 
What has happened in the last year or two is the release of a 
number of reports looking at earthquake risks.
    And as Mr. Chrisman mentioned, the study from UC-Davis, and 
which I mentioned in my testimony, that talks about he 
potential for the failure of multiple levees, a large scale 
failure.
    And one of the disturbing things about the Jones Tract 
failure was that it didn't come as the result of a flood. It 
happened during the dry year, and it happened at a time when 
the water projects are particularly vulnerable.
    So what we are starting to understand now--and I think what 
has really heightened awareness, in addition to Katrina--is the 
number of studies that showed the potential for a large scale 
failure of a kind that we have not seen before, and the need 
therefore for a more ambitious, more long range, plan to tackle 
those multiple issues.
    Not just water supply, but water qualify as Congressman 
Napolitano mentioned, and protecting all of those Delta 
infrastructure facilities that are there. It is a complex 
problem, and we are starting to realize that we need to tackle 
in a more long term way than we have.
    Mr. Radanovich. If we could wrap up this question.
    Mr. Guy. Well, most of the situations that we have seen 
have been fairly isolated as you all know, and just to give a 
feel, again going back to the 1997 floods, and when we had the 
so-called Pineapple Express. You get the warm water coming in 
during the early part of the year, and that fairly small break 
in the whole scheme of the State was over $300 million worth of 
damage.
    But I think that what we can't lose sight of is that people 
die during these events, and people have died throughout the 
history of California because of floods; sometimes in the tens, 
and sometimes in the hundreds.
    And the magnitude of any of these breaches, even the fairly 
small ones, are serious, and what we are talking about of 
course is much larger than that.
    Mr. Radanovich. Thank you, Mr. Lungren. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman, and thank you for 
holding this hearing, and just a couple of quick questions to 
open the topics, because I don't think we are going to resolve 
them here today.
    Just on the integrated crisis management plan that we have 
in California, which really is quite remarkable in its 
completeness, and how many times that we have tested it, and it 
has worked rather well.
    But I would just raise the point that Mr. Cardoza did. I 
just went through the same exercise that he did in Contra Costa 
County, and the concern there is that we are not going to get--
unlike Katrina, we don't get 4, 5, or 6 days warning. There is 
no earthquake season.
    And there is still a very real concern among our first 
responders of the ability to contact one another in real time, 
and understand one another in real time. I think we are going 
to take some actions in the Congress that are going to free up 
some money and some spectrum.
    But it is still the kind of a frightening program and the 
ability of Sheriffs' offices to talk to State Forestry, and to 
talk to others. I recognize that they all understand what to do 
with the equipment and the assets, but whether they still have 
the ability to talk to one another without warning.
    We know about fire seasons, and people start thinking about 
who is going to rotate where and what assets are going to be 
needed in other parts of the State. This is a different 
situation. So I just wanted to say that.
    Mr. Chrisman, let me ask a question. Waking up and reading 
the press accounts of the new 14 point Delta smelt action plan 
is quite stunning, in the sense that it sounds like all of a 
sudden we are in high gear on all aspects of this plan.
    I suspect that we are not, because of the divisions and 
expenditures, and if you did that, of billions of dollars.
    Mr. Chrisman. That is right.
    Mr. Miller. But there is a phrase that we could calm things 
down here a little bit. There is a phrase in the action plan on 
page three of, I think, the executive summary, and it says that 
the following is a summary of 14 actions that are either 
currently being implemented or under consideration by the IEP 
to protect and enhance Delta Smelt. This action plan will be 
updated to incorporate the results of ongoing scientific 
studies.
    Can I put some confidence in that paragraph, that that is 
kind of a gatekeeper there, and that we are not rushing off to 
embrace ideas that we had 25 years ago because now we have a 
crises in the Delta?
    You know, crises are used as multiple reasons in politics, 
and I just want to make sure that we have some guide post here 
that we have a lot about standing science work yet to be done, 
and a lot of questions that remain, because when we ask them 
about the collapse of the Delta, in terms of water quality, 
most people tell us that we are not even close to being able to 
tell you the answers.
    People have theories, and the Contra Costa Water Authority 
has a theory, and the State has a theory, and Fish and Wildlife 
has a theory. But the answer is that we don't know yet as I 
understand it?
    Mr. Chrisman. No, we don't, and it is an excellent 
question, and as the pelagic fish population crashed over the 
last year to 18 months, we began to realize that we don't.
    And we have in place a very aggressive science program run 
by the Department of Water Resources, the Department of Fish 
and Game, looking at such issues as invasives, pesticides, food 
sources, changes in the Federal and State project operations. 
They are looking at all of those activities.
    Mr. Miller. I have to be fast talkers of America here to 
get through in five minutes. So, Barry, is that sort of your 
understanding of what is taking place?
    Mr. Nelson. The Department of Interior's biological opinion 
on Delta Smelt, one of those species that has crashed, says 
that they believe, that Interior believes that water project 
operations is one of the major causes.
    The suspicion now is that the decline of the Smelt may have 
steepened because of invasive species and contamination. We 
think that we have to move on all three fronts. We can't wait 
for the science to come back.
    Mr. Miller. Do you have confidence in this paragraph that 
this will be done as we--to incorporate the science that is 
still out there, and that we are not rushing ahead here?
    Mr. Nelson. There has been a lot of discussion of what are 
sometimes called no regrets actions. We need to make sure that 
we are acting on all three fronts but at the same time build in 
flexibility to modify over time. We know that we need to act on 
all three.
    Mr. Miller. OK. Just quickly.
    Mr. Chrisman. Can I answer your question on the talking 
among various emergency agencies?
    Mr. Miller. I have a levee question that I would like to 
ask, and the question is this. I have been doing this for 30 
years, and for 30 years we have seemed to very often go back 
and pile more on top of the levees, and everybody wants their 
levees protected.
    We have learned a lot in flood management, and the Corps 
has learned a lot, and we have made a lot of different changes 
in the upper Mississippi, even some in the lower Mississippi, 
and some on the Napa River, and some even on the Delta.
    And to raise this question, are we looking at this in a 
very real strategic sense about what makes the most sense in 
terms of whether we have to move levees back, abandon levees, 
abandon islands? I mean, there is all of this on the table, and 
we are at some point going to be asking people, and we have 
already asked for a lot of money to do this.
    But we have learned a lot about controlling river flows, 
and tidal flows, and the use of levees. And let us not pretend 
like these levees were strategically placed when they were 
created.
    So now a century later, we have to ask some questions, and 
I am just wondering if all of these questions that are on the 
table, are they about the architecture of these, in terms of 
their strategic importance, and what role they play, or are 
they worth that role or not?
    It is a complicated answer and I don't expect a full 
answer, but again it just goes to the confidence of what we are 
looking at here.
    Mr. Majors. I think the answer is yes to all three 
questions. There is three things taking place right now. One is 
emergency response, and how you do that. I talked about things 
that could be considered, and where we actually get out there 
in real time in the event of a breach, and know where that 
salinity is going, and literally have the ability to stop 
salinity from coming into the Delta on channels.
    The other thing that was talked about was short term 
actions. While we have the Delta risk management strategy going 
on, there are also some no regrets, and I think that Mr. 
Chrisman talked about it, actions such as Sherman and Twitchell 
Island, which are obvious fixes as far to the west in the Delta 
that you can get.
    And if those goes, Subsume Bay comes in. I mean, there is 
no question about that. So those are near term type actions you 
might say, some 2 to 5 years. Emergency response, we believe it 
can be enhanced.
    And then long term, I believe this Delta risk management 
strategy is key, because it is looking probabilistically. You 
can look at one levee or three levees, and take them out of the 
equation, and cause them to flood, and determine economic 
consequences all the way into Southern California.
    You see, that is a common denominator, and then you can 
apply a fix against that strategically, and say, well, what if 
we just put storage in Southern California, and how would that 
work on economics?
    Or why don't we take five islands out in the central Delta 
and guarantee that they won't fail? Do you see what I mean? It 
is that type of thing. I think that sort of strategy needs to 
guide long term actions, a good deliberate strategic action.
    Mr. Miller. My remaining time, Mr. Chrisman, is yours.
    Mr. Radanovich. There is no remaining time.
    Mr. Miller. I just wanted to be generous.
    Mr. Radanovich. Nice try. Mr. Herger.
    Mr. Herger. Thank you very much, Mr. Chairman. There is not 
any other issue more important in the area that I represent in 
Northern California than the issue that we are addressing 
today.
    So again I thank you very much, Chairman Radanovich, for 
having this hearing. I also welcome David Guy, who is the 
Executive Director of our Northern California Water 
Association, and represents a number of water districts that 
are so important in our area.
    And when we look at the importance, we look at maintaining 
a secure and reliable water supply and protecting the people 
and property from flooding. Again, as we see now and are 
witnessing in the Gulf States, there just are not any issues 
more important than this.
    I think back to some of the problems that point this out 
even in our area, and some of the problems that have brought 
about some of the flooding that we have had, that perhaps could 
have been alleviated.
    For example, the 1997 flood that we had in Arboga, just 
south of Marysville and Yuba City on the Feather River, in 
which the Corps of Engineers in 1991 indicated, quote, that 
there would be a loss of human life that would occur if these 
repairs weren't made.
    But yet because of an Elderberry Bush that they found, and 
no Elderberry beatles, but a Elderberry Bush, for six years, 
these repairs were delayed. And then finally there was a break 
there, and three people drowned, including a Japanese-American 
war hero.
    The wife of the manager of the levee district was one of 
the three, and I understand that even now we are seeing that 
this continues. I understand that there is stories of 
vegetation blocking six fee wide erosion holes in levees, and 
the vegetation could not be trimmed because of endangered 
beatles.
    Would you like to comment on this, Mr. Guy, on just what 
the Endangered Species Act is doing to our ability to protect 
our levees, and just briefly, very quickly.
    Mr. Guy. Thank you, Congressman Herger. Absolutely, there 
are these kinds of issues that you see all over the State, and 
I think it really goes to the fundamental question that was 
asked earlier, which is we spent a lot of time of course 
developing a response to these kinds of calamities, when I 
think that most of us would agree that we ought to be spending 
the time up front trying to avoid the problem in the first 
place, and this is clearly an example.
    There are a bogus situation. The levee maintenance was 
deferred, and just as I might suspect, there is a lot of 
deferred maintenance going on in all of the facilities, whether 
they be levees, storage facilities, and of course a lot of that 
is purely a fiscal issue.
    But then there is also the regulatory issues that you have 
called out, and it seems to me that we just need to push 
forward and say that we are going to make not only the 
investments, but also the streamlining in the regulatory 
process that is necessary so that we can avoid this in the 
future. That public safety has to come first I would think.
    Mr. Herger. It has to, and I again thank you. And we also 
see--I don't know if any of you--well, if Mr. Neudeck would 
like to comment on the extra costs that we are seeing coming 
about because of this, of all the extra money that we are 
spending just for what some of us would think would be very 
fundamental, and just maybe move an Elderberry Plant, but yet 
literally spends millions of dollars more that we normally 
would not have to do.
    Mr. Neudeck. Yes, thank you. Well, we don't have the time 
to wait under most circumstances, and I think that in that 
particular instance, you had the Federal Government involved. A 
local reclamation district will work around and avoid that. 
They will actually set the levee back.
    They will do things that practically speaking that you 
wouldn't want to do, but when we look at these, there is a law 
that states that this is maintenance of a serviceable 
structure, and whether there is ESA compliance, and things of 
that nature.
    We are out there basically maintaining a highway, and that 
some of these plants came in and voluntarily seeded there, and 
no we no longer have that opportunity to maintain it. No more 
would we stop maintaining I-5 up California because there was a 
tree in the median. We would remove it. The problem here is 
that we can't, and so what we end up doing is that we realign 
the levee. We move it back to the land site. Yes, there is a 
tremendous cost to that, or we avoid doing the work, or we only 
do it during the months of August and October, or whatever the 
work period will be.
    So all those complications add to the bottom. line.
    Mr. Herger. Let me follow up to that. Now, I am born and 
raised in an area that is flooded, and one of my most vivid 
memories, and one of my first memories, was being five years 
old and having our ranch surrounded in water that had been 
flooded on a tributary at Feather River in 1950.
    But back in those days, they would annually go in, and up 
until 1986, I understand, annually dredge out these rivers of 
all the sediment that builds up every year. So that every year, 
these river systems are holding less water than they did the 
year before that.
    There is more and more vegetation and so they can allow 
less water to be able to travel down as it should. Would you 
like to hcomment? David Guy mentioned this phenomenon of a 
Pineapple Express, which we seem to get about every 10 or 12 
years.
    And that is where we get heavy snows in the Sierra, 
followed by a warm rain coming from the Hawaiian Islands, which 
dumps all this warm rain on top of heavy snows, and it all 
comes down at once.
    And the best levees as William Hammond, the first water 
engineer in the State of California, stated that there is only 
two kinds of levees; those that have broken, and those that 
will break. We could have the best levees in the world when all 
that water comes down at once, and not having been dredged, 
with all of the buildup that we have in it, and without the 
reservoirs to meter that, we are going to have a New Orleans 
type flood. Would you like to comment on that?
    Mr. Neudeck. Well, I will take the first stab. We are going 
backwards. That siltation or that sedimentation can be used to 
build levees, but in reverse, they are going to buildup, and 
our conveyance capacity drops as a result of that, and it all 
comes down to the constituents in that sediment.
    Into the mid-to-late 1980s, we used to go out and we would 
dredge at will. I mean, I worked with Fish and Game and the 
Streambed Alteration Agreement, and it would take us about $25 
and two days and we would be out there dredging.
    1989 rolls around and Fish and Game got interested, 
particularly in the Delta, and the Regional Water Quality 
Control Board got interested, the cessation of dredging. For 
instance, we went ahead and placed some dredged spoils from the 
Port of Stockton on the levee on Trapper Slew that has been 
mentioned here in this hearing to save Highway 4 and another 
40,000 acres from being flooded.
    And we have been involved with the State in basically a 
lawsuit from that point on, because there was some sediment 
characteristics that a couple of environmentalists did not like 
that were in that material, even though it saved public health 
and safety.
    So there is a real restriction on the use of sediments and 
dredged borrowed soils. We would really like for that log jam 
to be broken, because it serves two purposes. You open up the 
conveyance, and you also provide a borrowed source of material, 
a very valuable borrowed source.
    Mr. Herger. Well, just in closing, we have 
environmentalists----
    Mr. Radanovich. Wally, are you going to sum up?
    Mr. Herger. Yes.
    Mr. Radanovich. Your time is up.
    Mr. Herger. Thank you.
    Mr. Radanovich. We will get back to you. I want to give 
everybody an opportunity. Mr. Cardoza.
    Mr. Cardoza. I will yield to Mr. Costa.
    Mr. Radanovich. OK. Mr. Costa.
    Mr. Costa. Thank you very much, Mr. Chairman; and thank 
you, Mr. Cardoza, for yielding your time. In listening to the 
testimony that has been made here this afternoon, two things. 
One is that I reminded of all of the years that many of us 
together have worked on trying to protect and improve the 
issues surrounding the Delta water quality fisheries, and the 
ability to, when feasible, to export water south of the Delta, 
and going back to the Boatright Delta levee program.
    As a matter of fact, I counted the amount of money that the 
State has put in for Delta levee rehabilitation over the last 
10 years, and the number in Propositions 204 and 13 total over 
$125 million, specifically as it relates to 1996 for Delta 
levees.
    And there has been over $500 million that has been at one 
level or another, and provided in ways for fishery habitat, and 
restoration efforts, and the like. So it is not like the State 
has been sitting back idly waiting for something to happen.
    What I would like to do in my limited time is try to focus 
on alternative solutions and cost effectiveness. Certainly the 
comments that have been made, in terms of the critical 
importance of the Delta as the linchpin of California's 
plumbing system for water supply, water quality, and the 
environment, I think is known to all the Californians here.
    In light of Katrina, we have an opportunity it seems to me 
to try to draw additional Federal support beyond the CALFED 
effort, and I think that is where we ought to be focused. And 
my question, Secretary Chrisman, to you would be is the 
Department of Resources carefully examining the risk assessment 
versus the risk management in terms of where we ought to put 
our money?
    I mean, we did have a levee failure just over a year ago, 
and I think Mr. Herger is correct. We all understand that there 
are only two kinds of levees; ones that have not failed and 
ones that will.
    And with the subsidence problem--I mean, I think there is 
an open question as to--versus continuing to reinforce levees, 
and taking some of those most vulnerable levees, as was 
suggested by the gentleman from Metropolitan, and converting 
them into water supply, and doing other kinds of things that 
wouldn't be pouring money down an efficient way to protect the 
Delta.
    Mr. Chrisman. Well, Congressman Costa, that is exactly what 
this Delta Risk Management Study is about, is to do just that, 
and as Mr. Major indicated. I mean, it is kind of a scenario 
planning approach, and the kind of what-if approach with 
various scenarios.
    And at the end of the day when the study is done, what it 
is going to be required is political will to make some of the 
significant changes that are going to be recommended as a part 
of this study.
    They are going to be obvious out of this study, that come 
out of this study. I mean, he is absolutely right. I think we 
already know on the western part of the Delta some of those 
levees need immediate attention.
    And I think that many of us already know that in other 
parts of the Delta where those particular vulnerable areas are.
    Mr. Costa. You are going to put a price tag scenario, one; 
and continue to do what we have been doing, and that is to just 
reinforce the existing levees?
    Mr. Chrisman. Absolutely. Right.
    Mr. Costa. Both project levees and non-project levees.
    Mr. Chrisman. Yes.
    Mr. Costa. And in scenario two, looking at and dealing with 
the dredging issues. And in scenario three, looking at turning 
in some of the islands to reservoirs, and in essence buying out 
the property owners.
    Mr. Chrisman. Right.
    Mr. Costa. An in scenario five, god forbid should say the 
word--what is it now, the correct word? It is no longer PC.
    Mr. Chrisman. It is a peripheral canal.
    Mr. Costa. Right, it is a peripheral canal, but otherwise 
known as an isolated facility.
    Mr. Chrisman. Right.
    Mr. Costa. And you will get price tags for all five of the 
scenarios.
    Mr. Chrisman. Well, you would have to.
    Mr. Costa. Well, I don't think we can come back here, 
notwithstanding Katrina, and ask for additional money 
notwithstanding CALFED.
    Mr. Chrisman. That is right.
    Mr. Costa. And unless we can do a risk assessment, along 
with a price tag?
    Mr. Chrisman. Well, you are absolutely right, and again, 
you talk about the Delta facility, and known as the peripheral 
canal facility or whatever, and that is an integral part of the 
record of decision.
    Through CALFED, we are going to be teeing that discussion 
up again here in the not too distant future, again talking 
about it, and I hope from a strategic standpoint, looking at it 
strategically, what does it mean, and how can we better move 
the water around through the Delta, and how can we better 
manage that ecosystem, and with the demands that are on that 
system today.
    I mean, what are the right answers? We don't know them yet, 
and so we are going to be teeing those conversations up as a 
part of this CALFED process.
    Mr. Costa. And what is the time line that you expect, 
because memories around here--I have only been here around 9 
months, and I can see that they are pretty short.
    Mr. Chrisman. The Delta Risk Management Study was due to be 
completed in early 2007, and we are going to speed that up.
    Mr. Costa. You need to speed it up.
    Mr. Chrisman. Exactly, but I think we already know what in 
some of the most vulnerable areas of the Delta, particularly on 
the western part of the Delta, what needs to be done.
    There are going to be some of us suggesting that we need to 
move quicker in some of those areas, and so we are going to be 
doing that.
    Mr. Costa. One last quick question.
    Mr. Radanovich. Quickly.
    Mr. Costa. The FED agencies and the locals are 
participating?
    Mr. Chrisman. Yes.
    Mr. Costa. I just want the report to be credible.
    Mr. Radanovich. Than you, Mr. Costa. Mr. Pearce.
    Mr. Pearce. Thank you, Mr. Chairman, and thanks for letting 
me in on this California caucus.
    Mr. Radanovich. This is a California----
    Mr. Pearce. Yes, I understand, and if I can learn that 
secret handshake, I will then ask my wife if she minds if I get 
that secret tattoo put on. First of all, I would go to Mr. 
Nelson.
    Mr. Nelson, on item three on your presentation, it says 
that you would reduce dependence on water from the Delta. How 
much of a percentage reduction would you think long term you 
should try to achieve? Just a percent? Keep in mind that I have 
lots of questions and a long way to go.
    Mr. Nelson. Frankly, there are a lot of different ways of 
tackling that, but the one way that I would approach that is 
that in the last five years--my testimony has said that in 3 of 
the last 5----
    Mr. Pearce. No, just how much of a percentage reduction, 
and if you would give a percent.
    Mr. Nelson. Well, a 10-to-20 percent reduction.
    Mr. Pearce. OK. Thank you. Mr. Majors, in Item 2 of his 
report, Mr. Nelson says that users should--that the water 
exporters should benefit, and simply reading here, I am taking 
a guess that you might be a water exporter.
    Is that rational that you would be expected to pick up the 
maintenance of the levees? Is that something that you would 
agree with, either up or down?
    Mr. Majors. I don't think that we are talking about issues 
of taking all of it on board, but if we can a specific benefit 
that we are receiving, that is the type of thing that we need 
to see to make a determination that there is some money that we 
want to provide. But we have to have benefits noted on this so 
that we can react to that.
    Mr. Pearce. Thank you. Mr. Nelson, you heard Mr. Neudeck's 
comments about the problems and lawsuits. Philosophically, do 
you agree with the lawsuits that are stopping progress on 
dredging and cleaning out the systems behind the dams or the 
levees, and do you understand the process by which groups do 
that, or are you philosophically opposed, or are you supportive 
of those lawsuits?
    Mr. Nelson. I would have to say that I am not familiar with 
those lawsuits. I have worked on dredging issues.
    Mr. Pearce. You heard the testimony, and it is a fairly 
simple deal. They are saying don't take the stuff out because 
there are sediments there that are causing problems to the 
environment, and so philosophically, it is either yes or no. It 
is a fairly easy question.
    Mr. Nelson. Well, our philosophy has been to try to find 
solutions on dredging issues, and we have been very successful 
in doing that.
    Mr. Pearce. And so you would be opposed to the lawsuits?
    Mr. Nelson. I would have to say that I don't know the 
details, but what I do know is that we have been involved with 
projects that have allowed dredging projects to move forward 
and address sedimentation and contamination without litigation.
    Mr. Pearce. As far as stopping the sprawl in the Delta, how 
much would you go back and retrace, or would you simply stop 
further development in the Delta? Would you actually take 
houses out and residents out?
    Mr. Nelson. I don't think that anyone is talking about 
taking residents out. Now, that might happen if individual 
islands came out of production, but some of the deeper islands. 
But no one is talking about eliminating developments on the 
periphery of the Delta.
    What is becoming clear now is that areas of the Delta that 
are not as seriously subsided may be vulnerable to failure, and 
we need to take seriously the potential that folks living on 
those islands could be at risk.
    Mr. Pearce. Mr. Chrisman, that 10 to 20 percent reduction 
in Delta water, is that something that you think is feasible 
and willing to support?
    Mr. Chrisman. Well, you have to put it in the larger 
context. I mean, if we are going to take that reduction, we 
have to make it up somewhere else from my perspective as one of 
the water managers in California.
    So we are going to have to make it up somewhere else, and 
the somewhere else is going to be challenging.
    Mr. Pearce. And the somewhere else is through conservation, 
and that is the testimony, and can you achieve the 20 percent 
reduction and get the 20 percent savings through conservation?
    Mr. Chrisman. It is possible. It is possible with new 
technologies, it is, but again, you have to put that in the 
larger context, a larger management context.
    Mr. Pearce. Mr. Neudeck, would you care to comment on the 
workability, the ability of the groups here bringing court 
actions to stop your progress, and how much are they interested 
in working solutions, or are they just interested in 
obstruction in your opinion?
    Mr. Neudeck. I think there are some groups out there that 
are just interested in obstruction. Working with the State and 
the regional water quality control board, I think their intent 
is to find a solution.
    Unfortunately, the Delta has a drinking water quality 
standard over it, and provides----
    Mr. Pearce. Well, I am about to run out of time here. For 
those groups that are simply after obstruction, what could 
motivate them to obstruct the processes of the cleaning out of 
a levee system?
    Mr. Neudeck. There are some political ones, particularly 
with the port.
    Mr. Pearce. Thank you, Mr. Chairman. My time is up.
    Mr. Radanovich. Thank you, Mr. Pearce. You might want to 
know, too, that the secret handshake is a little different in 
Southern California than it is in Northern California. Mr. 
Cardoza.
    Mr. Cardoza. Thank you, Mr. Chairman. I am going to skip 
any comment on that last comment, but that is interesting to 
know on an issue like this, the big guns come out; the 
appropriators, the Ways and Means folks. We welcome them over 
here.
    I would like to start my first question to Mr. Neudeck. You 
have mentioned a couple of times that there is this window 
period of an allowability of work because of the Endangered 
Species Act. Could you elaborate on that? I am not familiar 
with why that would be the case.
    Mr. Neudeck. Certainly. It is the in-water work. It tends 
to be toward the fisheries. So any in-water work has to be in a 
non-spawning period, which tends to be overall in the Delta 
from about August 1 to about October 30, or November 1.
    So anytime that you work on the water side of the levee, 
which is the most active area for erosion and activity, you 
have to do it in that period. Otherwise, everything else has to 
be done up land or on the land side. So you will see that is 
why the advent of the setback levee, and moving levees 
landward, has another merit to it.
    Mr. Cardoza. Thank you. I want also at this point to 
associate myself with comments that Mr. Herger made earlier on 
the Elderberry Beatle, and that is the reason why my community 
of Newman has flooded twice now, although I will say that the 
Corps and other agencies have been much more amenable in 
working with us on that problem, and a number of challenges 
that we have there, and I would like to thank them for those 
efforts.
    And I think that we have eliminated some of those 
challenges, or at least reduced the challenges of having that, 
and there are other threats to the community for other reasons. 
I would like to focus most of my time remaining on questions 
other than dealing with levees, as other members have 
adequately dealt in my opinion with questions of the levees.
    But as Mr. Herger as well has said, there are going to be 
failures, and my concern is the catastrophic failure, and the 
inability for us to truly be adequately prepared. In 1997, my 
district was at ground zero on many of the flood, as Mr. 
Herger's was.
    And I patrolled the levees and saw boils, and I could not 
believe what I was seeing; that 30 feet out, and sometimes 
more, into a field next to a levee, you would just see this 
boil of water start to come up, and boom, and that would be the 
precursor to possibly a levee failure.
    And the hydrology of levees are amazing, but all that pales 
in comparison, and that is during a flood situation obviously. 
But all that pales in comparison to what would happen during an 
earthquake. And in an earthquake--and my comment is to Mr. 
Chrisman, because we were talking about emergency preparedness.
    And while this is not your department as a member of the 
Administration, I thought our Office of Emergency Services did 
an admirable job, both then and some other times.
    But I will tell you that I have been involved in other 
crises were there has been difficulty getting a decision made 
to act, even with as good as we are in California. And I am 
afraid that without the inoperability of communication, without 
having a more targeted plan of action to decide how we are 
going to deal with things before, that no amount of studies on 
the shelf are going to help us unless we are really prepared 
for the emergency that I think is most threatening to us, and 
that is the earthquake failure of the Delta. And I would like 
to have you have an opportunity to respond to that.
    Mr. Chrisman. That is an excellent question. I mean, that 
is a question that we ask ourselves all the time quite frankly. 
It is a question that we are asking ourselves as we go through 
this levee assessment right now.
    And it is a question that we ask ourselves every time that 
we have a natural disaster, and we sit back, and as I said 
earlier, try to figure out what we did right and what we did 
wrong, and try to learn from that.
    Earthquake preparedness in California is something that we 
are very serious about, and all we have to do is look around 
the State, and look at what is happening in some of the most 
earthquake prone areas, in terms of building rehabs, and that 
sort of thing.
    I mean, I think we recognize it. But levees as you point 
out, and particularly in the Delta, and the age of those levees 
on peak soils, with the subsidence out there, and with the 
critical nature of which we have come to depend on the Delta 
from an estuary standpoint, and from a water supply and water 
quality standpoint in California.
    Again, we are going to have to do a better job, and that is 
why this scenario planning that we are going through right now 
on the Delta levee system is going to be critically important.
    And it is the kind of scenario planning that we need to do 
with respect to our emergency preparedness, particularly as it 
relates to levees, and we are going to be suggesting some of 
those kinds of activities along the way.
    But you are right to be concerned about it, and you are 
right that you can in most emergencies, you can never be too 
prepared. But in earthquakes as it relates to the levees, we 
can stockpile material. I mean, there are a lot of things that 
we can do, rock materials and other materials, to quickly get 
in and fill the breach.
    That is something that we learned out of the Jones Tract 
disaster, and a number of those things are in the process of 
being done. But we can do better.
    Mr. Cardoza. I would just say that if our local officials 
can't communicate, and they don't have the ability to marshal 
those services between irrigation districts, or reclamation 
districts, the State, as I have seen in the past--we can 
stockpile until the moon and not ever have the ability to get 
the equipment to the right place before it is too late.
    Mr. Chrisman. let me speak to that issue. I wanted to speak 
to it. Mr. Miller asked me about it, but we learned that again, 
that interoperability of communications during major disasters, 
and we learned that the hard way during the 2003 fire storm 
down in Southern California, particularly in San Diego County.
    And we have at our level moved to correct that. Essentially 
what we have gotten is that we have hand radios, and quite 
frankly, when we get into a multi-agency event on the ground, 
we carry hand radios in, and pass them out to our sister, and 
brother departments, and agencies that are working with us on 
the disaster.
    We are doing that now. We stepped up to the legislature 
last year, and got monies to do just that kind of thing. We are 
working to try to get mutual bands, FM bands and other radio 
frequency bands that are emergency only bands, and that only 
work within a certain range all over California.
    So we are working to do just that, and so that is a part of 
our--that is part of what we learned out of the 2003 disaster, 
and we have moved to correct that, and we are working with our 
Federal counterparts, at the Forest Service and others, to 
correct that also.
    Mr. Radanovich. Thank you, Mr. Cardoza. Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Chairman. It is good to be back 
on your committee, and thank you for holding this very 
important hearing on Delta levee security. I think it is really 
critical.
    I had a chance to spend some time in the Delta two weeks 
ago looking at these levees, and I think that there could be 
some considerable challenges to the Congress if we don't do 
something, especially in a wet year.
    With that said, Mr. Nelson, I would like to ask you do you 
think that storage facilities, especially on-stream storage 
facilities, should be an important piece to Delta levee 
security?
    Mr. Nelson. As I mentioned, one of the concerns about the 
Jones Tract failure is that it did not happen during a flood. 
It didn't happen during an earthquake. It happened during a 
time of the year when it was much less expected than that.
    Looking at Delta issues, at the moment, it frankly doesn't 
seem that additional storage is going to make a significant 
difference in protecting the long term stability of the Delta. 
There is a storage project in the Delta right now that is 
really to be constructed, or virtually ready to be constructed, 
Delta wetlands.
    And unfortunately--and that is a creative project that the 
environmental community frankly has not been--where the 
environmental community has not been the problem for the 
proponents of that project.
    The problem is that no one believes that that project is 
financially viable. The Department of Water Resources doesn't 
believe it at the moment. The Water Exporters don't believe it, 
and we think that cost factor has to be factored in at the 
moment.
    Things like restoration of the Delta, setback levees 
upstream that actually offer environmental and flood control 
benefits, we think that those projects are really promising.
    Mr. Nunes. So for the record, you are not for onstream 
storage?
    Mr. Nelson. Not for it? Well, there are----
    Mr. Nunes. I know you are against the peripheral canal, and 
you outlined that in your testimony.
    Mr. Nelson. There are a lot of water projects in California 
that we have never taken a position on. I am not aware of a 
surface storage facility that we have endorsed. The surface 
storage projects are under investigation right now, and other 
than Delta Wetlands, for which there are no customers, the 
other projects are projects that are not right now at a 
feasibility level. And at the moment, none of those projects 
have shown themselves to be feasible to any stakeholders in 
California.
    Mr. Nunes. Well, I am concerned that in a wet year, you 
know, with the ongoing lawsuit that you are a part of, to take 
water out of the San Joaquin River, and in a wet year wouldn't 
that add to the problem of levee security?
    Mr. Nelson. Without a doubt, it would potentially offer 
storage, and potentially offer some benefits, both for river 
restoration and for flood protection in some places. As you 
know, we have looked in the San Joaquin River, and the 
potential for small surface storage projects to be helpful 
there.
    Those are expensive, but we think that some of the smaller 
ones are worth examining. Groundwater storage is far less 
expensive, and California has made a major investment there in 
terms of cost effectiveness for water supply.
    That is where not just the environmental community, but 
that is where most Water Districts have chosen to put their 
money.
    Mr. Nunes. I am not opposed to any of those projects, but 
we always get to the same point when we have a lot of water in 
California, it all comes at one time. And unless you have the 
proper storage facilities to handle that flow, you have major 
flooding.
    And you can build a lot of off-steam storage, and a lot of 
groundwater storage, and you are going to have considerable 
flooding, which leads me to the concern that I think you bring 
up, and maybe you are right on this one, and that is returning 
some of those islands out there to marsh habitat.
    And I am interested in knowing the 60 islands that are out 
there, how many of those 60 should be flooded out and returned 
back to natural habitat and marshland?
    Mr. Nelson. I can't give you a number in terms of which, 
but I think that is one of the places where we really need a 
Delta wide assessment of how many and which islands we need to 
return.
    With regard to your comments on surface storage, from our 
perspective, we have no concern with all options being on the 
table, but we think that we need to look at all of those 
options--surface storage, groundwater storage, levee setbacks, 
and so forth--and look at all of those options as part of a 
strategy, and honestly evaluate the costs and the environmental 
solutions. We think that can be doable, and produce results 
that will provide multiple benefits.
    Mr. Nunes. But you definitely think that we should take 
some of the islands out and just--that we should flood a lot of 
those islands out there?
    Mr. Nelson. Given that there are eleven hundred miles of 
waterways, I believe, in the Delta, it is going to be extremely 
difficult to maintain all of those Delta levees over the long 
term.
    And if we reduce that number by restoring some islands, it 
means that we can concentrate our activities on other islands, 
and that is true in the western Delta as a number of folks have 
mentioned, and it may be true in other parts of the delta as 
well.
    Mr. Nunes. Thank you. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Nunes. Welcome to the 
Subcommittee, Mr. Doolittle. John, if you have any questions, 
feel free.
    Mr. Doolittle. Thank you very much. I appreciate being up 
here with you, Mr. Chairman. And I guess that as I was looking 
over this letter, Mr. Secretary, Secretary Chrisman, from 
Governor Schwarzenegger, are you aware, Mr. Chrisman, of what 
the current value of State property is in the American River 
floodplain?
    I know what the total value of all assessed valuation is in 
the floodplain, but my figures are about nine years old. Are 
you doing an updated study for the State based on the concerns 
that Katrina has raised, and the possibility of a catastrophic 
event facing Sacramento?
    Mr. Chrisman. You know, I don't know whether we are in the 
process of doing that. I will have to get back to you on that, 
Congressman. I mean, if you would look at the Governor's 
letter, and you look at the projects in the Governor's letter 
that I think you were alluding to, it seems to me that those 
are the kinds of questions that we need to answer. But I can't 
tell you if that is in the process right now.
    Mr. Doolittle. Well, I would appreciate it if you would for 
the record submit your answers.
    Mr. Chrisman. Sure.
    Mr. Doolittle. What if it turns out that no one is doing 
that? Is that something that you would feel would be something 
that you would care to commit to begin?
    Mr. Chrisman. I would need to ask why it is not being done. 
I mean, I can at least commit to that today, to ask why, 
because it seems to me that we need that base of understanding 
before we can make some of these bigger decisions.
    Mr. Doolittle. Well, I have marveled over the years, 25 
some years, where it seems that the State of California has 
never appeared to be that concerned about the value of its own 
property within the floodplain.
    And nine years ago, I believe these are the figures that we 
had from the Sacramento area flood control agency. I believe 
there were $40 billion of assessed valuation in property in the 
floodplain of the American River.
    That is total, and I don't know what percentage that 
belongs to the State but obviously the State has a number of 
buildings there in the American River floodplain, and I would 
like to have an accurate figure on that.
    Also, just to draw your attention, there was a Blue Ribbon 
Study done by the Corps of Engineers a few years ago, and I 
don't remember the name of that, but in there, they made the 
statement that levees are inherently unstable and less reliable 
than on storage dams, and I never hear any talk of dams 
anybody, either out of our Sacramento Administration, or 
frankly our Administration in Washington, D.C.
    Dams are like politically incorrect. So we talk about 
levees, which are inherently less reliable. I just wondered. Do 
you--you are living, I presume, someplace around the Sacramento 
area; is that right?
    Mr. Chrisman. That is correct.
    Mr. Doolittle. Are you in a floodplain?
    Mr. Chrisman. Yes, I am, and I am worried about it. My 
office is on the thirteenth floor though.
    Mr. Doolittle. Do you have any----
    Mr. Chrisman. I hear. No, that is a very good question, and 
again it is a part of the record of decision that created the 
CALFED process. We have teed up, and we are studying five 
different storage projects around California.
    Mr. Doolittle. Yes, are any of those onstream storage?
    Mr. Chrisman. Maybe. Yes, could be, but they are 
enhancements. There is Shasta. There is Dam Los Banos Grande, a 
number of those kind of projects. Again, we are still in the 
feasibility study stage.
    We are still trying to figure out whether in fact they are 
economical from a storage perspective and water yield 
perspective. So to that extent, we are doing just that. We are 
at work trying to enhance water storage projects that Mr. 
Nelson talked about.
    We are encouraging all of those activities. And our 
California water plan, if you look at our Bulletin 160 process 
that we are involved in now, we are going to be relying 
specifically on integrated regional management.
    We are prospectively looking out for 30 years, in terms of 
these type of water management projects. Ultimately, additional 
storage projects will be a part of that. But we think in the 
short and medium term that there are significant benefits that 
we can gain from additional groundwater storage projects, 
conversation, recharged basin, those type of activities, that 
will gain us supply over time.
    Mr. Doolittle. Those will help with supply, but they are 
not going to help protect your property in the American River 
floodplain. So are you doing anything about that?
    Mr. Chrisman. Well, again, we are in conversations with our 
partners at the Bureau or Army Corps of Engineers, and the 
Bureau of Reclamation, and others, and you will hear about that 
from our folks from the Bureau of Reclamation. But, no, at this 
stage of the game, we are not.
    Mr. Doolittle. Well, unfortunately--and I do mean 
unfortunately, I cannot stay to hear that testimony, but I will 
bet you that they are not going to testify that they are doing 
anything about that either. What do you bet?
    Mr. Chrisman. I am not going to take you up on it, 
Congressman.
    Mr. Doolittle. Thank you, Mr. Chairman.
    Mr. Radanovich. You are welcome, Mr. Doolittle. Mrs. 
Napolitano. Excuse me one second. Secretary Chrisman, I 
understand that you may need to leave shortly?
    Mr. Chrisman. I do need to leave, yes.
    Mr. Radanovich. And I want to thank you from being here, 
and excuse you, and for any other members that might have 
questions of the Secretary, we will submit them in writing.
    Mr. Chrisman. Please do.
    Mr. Radanovich. And we would appreciate a prompt response.
    Mr. Chrisman. Thank you a lot. I appreciate the opportunity 
to be here today.
    Mr. Radanovich. Thank you, Mr. Secretary. Grace.
    Mrs. Napolitano. Thank you, Mr. Chair. For Mr. Majors, 
there is a couple of questions that I have. One of them has to 
do with climate changes. Do you agree that climate change in 
sea level rise is an important point to consider?
    Mr. Majors. No, we think they are. In fact, a couple of 
things. If you start looking at subsidence taking place in the 
Delta, subsidence is taking place at about a foot-and-a-half 
per decade. Sea level rise, there is a fair amount of numbers 
out there, but it might be in the range of .2 feet per decade.
    So subsidence sort of overtakes it. Overall subsidence has 
been taking place in the Delta since the islands were drained 
in the 1800s, at about a foot-and-a-half per decade. And then 
you can look at a number of sea level rise analyses, but it 
tends to be in the range of a couple tenths of a foot per 
decade. Two-tenths, let us say.
    So the sea level rise is the--pardon me. Subsidence is the 
greater problem, but keep in mind when that happens that one is 
going down and the other is coming up. So it makes the levees 
higher. So it all contributes to more risk.
    And beyond that though in Southern California, we sit on a 
number of forums dealing with the sea level rise issue, and 
that prompts a very robust conservation strategy and 
reclamation strategy that we employ.
    We have a number of pieces of information that we could 
share with you and discuss on that.
    Mrs. Napolitano. Thank you. May we introduce those into the 
record?
    Mr. Radanovich. Yes, without objection, it is so ordered.
    [NOTE: The information submitted for the record has been 
retained in the Committee's official files.]
    Mrs. Napolitano. Thank you. Does the MWDSC contribute 
financially to the Delta Levee and maintenance improvements, 
sir?
    Mr. Majors. Would----
    Mrs. Napolitano. No, do you currently.
    Mr. Majors. Only in the sense that we support the bond 
issues that are used to, say, reimburse the reclamation 
districts, but the overall question of user fees and such is 
under way right now in CALFED and DWR.
    Mrs. Napolitano. Does that include the risk study?
    Mr. Majors. That I can't respond to. I would have to get 
that answer for you.
    Mrs. Napolitano. If you would.
    Mr. Majors. Definitely in terms of right now at the moment, 
there is no what you would call an annual fee or something like 
that, that the Metropolitan is paying
    Mrs. Napolitano. There might be other--how would I say--
assistance.
    Mr. Majors. Well, I will just loosely use the term user 
fees. If we can define a benefit, giving us an economic 
benefit, I think that is what our board of directors wants to 
see. Levees might apply.
    Mrs. Napolitano. Certainly. That means that you are 
protecting our water supply in Southern California.
    Mr. Majors. Right.
    Mrs. Napolitano. Thank you, sir. Mr. Nelson, can you tell 
us whether the enactment of the AB 1200, which is fairly 
similar to CALFED, will that help solve the problem of Bay 
Delta, or address the problems of Bay Delta, and wasn't that 
what CALFED was supposed to do?
    Mr. Nelson. AB 1200 was a bill that was just signed by the 
Governor that directs the State to look at the Delta with 
regard to system vulnerability, the issues that we are 
discussing today, and to report back on options.
    We think that is really going to help strengthen that 
program and make it a more robust program. Should CALFED have 
taken a broader look at these vulnerability issues from the 
start? It probably should have.
    But frankly the strategy for the first several years of 
CALFED was to spend money in the State as Mr. Costa pointed 
out. It has spent quite a bit of money on levee maintenance. 
What has not happened is the development of an overall plan, 
and the developments in recent years we have been talking about 
have really highlighted the need to step back and develop that 
broader plan for the future of the Delta.
    Mrs. Napolitano. One of the questions that has come to mind 
as you are talking about the islands, and whether or not there 
will be assistance to be able to shore up some of those levees 
in those areas that are populated, if you will, what about 
flood insurance? Is it a requirement? Are we ensuring that 
those individuals that are moving are aware that this is 
floodplain, and that they must have flood insurance?
    Mr. Nelson. Those developed areas do require flood 
insurance. There is some concern given the increased 
understanding of the vulnerability of the Delta that we may 
have underestimated the risk to some of those Delta islands, 
and that means insured communities may think that they are 
safer than they really are.
    Mrs. Napolitano. Is any attempt being made to be able to 
educate and inform those currently residing in those areas?
    Mr. Nelson. I honestly don't know. The Governor has 
recently appointed a new Reclamation Board at the State that is 
responsible for tackling some of these issues, and I don't know 
what their programs are to address that public education need.
    Mrs. Napolitano. Thank you, sir. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mrs. Napolitano. Mr. Nunes.
    Mr. Nunes. Thank you, Mr. Radanovich. Mr. Neudeck, I have a 
question for you. You have done a lot of work on the levees in 
the Delta.
    Mr. Neudeck. Correct.
    Mr. Nunes. And I read in your testimony that you are--you 
cite a lot of reasons why you should not flood out any of the 
existing islands that are out there, the 60 islands, and wants 
to flood out some of the islands, and I don't know how many of 
the islands that he wants to flood out.
    So based on your testimony, are there any circumstances 
where you would flood out any of the islands?
    Mr. Neudeck. Basically, the answer is no. I think that we 
were specifically relating to the Delta project which was four 
centrally located islands. We are having enough problems 
keeping the water out, and putting water in is a substantial 
challenge.
    What occurs when you put water in these Delta islands, they 
actually seep under the adjoining channels on to the 
neighboring island, and destabilize the levees in the process.
    They also create a much larger windfetch, potentially 
opening up the Central Delta to a large lake. We have testified 
against those projects for those challenges, and the solutions 
for those challenges, and those challenges will become a very 
large expense to try and offset them.
    The idea of trying to reduce the seepage would require 
putting pumps around the entire island that was flooded, and 
basically return the seepage water from going to the 
neighboring islands back on to that island.
    And that is where I think that Mr. Nelson is indicating the 
expense of this is really beyond where anyone thinks they were 
going. So the challenge to do that--that is really not the 
place to put them. If you are going to do off-stream storage, 
get it outside the Delta. The Delta is not the area to be 
putting off-stream storage.
    Mr. Nunes. So are there opportunities then to build a type 
of--either through a Delta canal, or peripheral canal, that 
would bring more fresh water into the Delta?
    Mr. Neudeck. We are absolutely against a peripheral canal 
for a whole host of reasons, and the primary reason is the 
Delta pool. We are all in it together. State law establishes 
that the delta pool is being maintained, and the locals and the 
diverters share in that same common pool, and we are going to 
stand strong behind that.
    We are absolutely against any peripheral canal. You will 
kill the Delta as you see it today, along with all those that 
are benefiting from it. But we believe that State law protects 
us against that.
    Mr. Nunes. But that is a pretty harsh criticism of the 
peripheral canal. I mean, under some studies that I have seen, 
they actually show that there could be some improvement, in 
terms of being able to flush the Delta areas where you don't 
get the fresh water, and to bring the water around, and then 
back through the Delta.
    Mr. Neudeck. I will answer your question again. Yes, I am 
absolutely harsh against it, and the reasons for it is that if 
they have it and we want it, those that have it will continue 
to have it, and those that need it will never get it.
    The need for that Delta or for that water source, if it 
goes to a isolated facility, will always be higher than the 
estuary or the remaining Ag islands, and things of that nature, 
and that is why I think that State law provided for maintaining 
that common pool.
    Once it goes to the peripheral, you will basically do under 
the Delta. So I think it is just based on the way that policy 
will run. I mean, there is going to be a much higher need from 
a drinking water perspective at that point to maintain that 
water quality in the peripheral system, and forget, or allow 
the water quality in the remaining system to no longer exist.
    Mr. Nunes. But essentially what you are saying is that you 
are afraid of losing more water out of the Delta farmers?
    Mr. Neudeck. Well, all those that benefit from it, yes. The 
original origin of that water.
    Mr. Nunes. Well, to say that never turns back and goes the 
other way is not correct as evidenced by what has happened in 
other parts of California, where we have lost a considerable 
amount of water to the Delta to improve water quality in the 
Delta.
    You know, everything from up north, Northern California, to 
down south, to the lawsuit that is currently going on, and that 
impacts my district dramatically. And I find it interesting 
that water quality continues to improve. Yet, the Delta Smelt 
population continues to rapidly decline, and these evasive 
species are coming in.
    So I hope that we are not too shortsighted on the fixes in 
the Delta, because I think that if we don't look at fixes, we 
are looking for a disaster on a lot of fronts. Did you want to 
comment, Mr. Nelson?
    Mr. Nelson. Thank you, I would. Mr. Neudeck eloquently 
stated the position of the landowners in the Delta, and their 
concerns about the peripheral canal. There are a number of 
reasons why for the last 20 years that every planning process 
that has looked at the Delta has decided to not proceed with 
the peripheral canal.
    One is the health of the Delta, and that Mr. Neudeck talked 
about. We are very concerned about potential impacts to the 
health of the Delta.
    Mr. Nunes. Well, in terms of the question of the health of 
the Delta, you have had more fresh water in there than you have 
had in the last 50 years, and why do you have the lowest fish 
populations?
    Mr. Nelson. We actually have less water this year. I just 
checked before this hearing, and this year, and the year in 
which the Delta Smelt reached its lowest ebb in history, this 
year, we have pumped more water from the Delta than we ever 
have in history, well over 6 million acre feet of water. That 
is more water than has ever been pumped from the Delta before.
    Mr. Nunes. Well, pumped, but that does not mean that the 
water quality has not been higher. Salt water has come up 
nearly to Stockton in years past.
    Mr. Nelson. One of the concerns that has been raised--there 
have been multiple reasons for the decline of the Delta Smelt. 
We think that one of those is water project operations, and the 
dramatic rise in Delta pumping.
    But the other issues of invasive species, and water 
quality, we think are all potential problems, and we need to 
tackle all three of those.
    Mr. Nunes. Thank you. I know that my time has expired. 
Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you, Mr. Nunes. There being no other 
questions of this panel, I want to thank you very much for your 
valuable testimony, and for coming here and testifying here 
today, and with that, you are excused. Thank you very much.
    And I will call up the next panel. Mr. Kirk Rodgers is the 
regional director of the Mid-Pacific Region of the Bureau of 
Reclamation, and Brigadier General Joseph Schroedel is the 
Commander and Division Engineer of the South Pacific Division, 
of the United States Army Corps of Engineers.
    Gentlemen, welcome to the Subcommittee. Again, if we could 
hear your testimony, and then we will open up the dais here for 
questions of that testimony. Brigadier General Schroedel, 
welcome to the Subcommittee, and you may begin your testimony.

STATEMENT OF BRIGADIER GENERAL JOSEPH SCHROEDEL, COMMANDER AND 
 DIVISION ENGINEER, SOUTH PACIFIC DIVISION, U.S. ARMY CORPS OF 
              ENGINEERS, SAN FRANCISCO, CALIFORNIA

    Brigadier General Schroedel. Thank you, Mr. Chairman. No 
apology is required on the pronunciation of my name. I will 
answer to anything quite frankly.
    Mr. Radanovich. Just make sure that you get Radanovich 
right.
    Brigadier General Schroedel. Got it, sir. Sir, again, Mr. 
Chairman, and distinguished members of the committee, it is 
indeed an honor today to testify here before you, but also to 
join you as we engage together to serve the American people.
    Second, it is an honor for me to represent the chief of 
engineers, Lieutenant General Karl Strock, who sends his 
regards, and also to represent my division, which encompasses 
all or parts of 10 Western States, and not just the State of 
California, which is in question today.
    And also in some indirect way to represent the men and 
women of our country who are serving this Nation around the 
world, and our civilians, and I would point out that today that 
approximately 10 percent or better of the United States Army 
Corps of Engineers, predominantly civilian, are volunteering 
serving in many places around the world.
    And I would like to publicly thank also today the Bureau of 
Reclamation, who offered up in excess of a hundred volunteers 
of their own, and who are currently serving and supporting us 
in Operation Katrina in the Gulf, and I will talk more about 
that in a second.
    I would like to let my written testimony stand as a part of 
the record, and just offer a very brief introduction here 
orally, to underscore what I think are two very important 
points as we move forward.
    First, I think we have heard a lot already today regarding 
the condition of the levees and we can talk more about that in 
the question and answer period. In terms of the solutions, I 
think there are two very critical things that we would like to 
emphasize.
    The first is that we do need to take a strategic look at 
our priorities. We do need to take a look also at how we use 
the resources and authorities that are at our disposal. The 
Corps stands ready to support that for which we were called to 
do.
    On the resources side, I think Katrina and Rita served as a 
call to action. In that regard, we have some tough issues in 
front of us, and we need to find the wisest use of all the 
resources and authorities at our disposal, and to balance 
competing demands, and to protect life, property, the 
environment, and also our own values.
    And then second, I want to emphasize the collaborative 
nature, which you have heard a couple of times today, and I 
would just underscore that the collaboration between the 
Federal, State, local, and other entities is quite alive today.
    And if I could just use this little quote. If anyone has 
read Cadillac Desert, I would tell you that we are in the 
process by our actions, and not by our words, of rewriting what 
you find in that book. I will tell you that the collaboration, 
the honest to goodness collaboration, the honest to goodness 
trying to find the best way to leverage the authorities and 
capabilities of each of our agencies is quite alive and well. 
And I can give many, many examples of that.
    Again, Mr. Chairman, distinguished members, I am very, very 
proud to be here to testify today, and to give you the best 
engineering judgment that we can offer as we tackle a very 
difficult situation, and find ways to prevent or at least be 
able to appropriately respond to any catastrophes that may 
result that have any similarity to what we have faced in the 
Gulf. So, Mr. Chairman, thank you very much.
    [The prepared statement of Brigadier General Schroedel 
follows:]

      Statement of Brigadier General Joseph Schroedel, Commander, 
          South Pacific Division, U.S. Army Corps of Engineers

Introduction
    Mr. Chairman and distinguished members of the Subcommittee, I am 
Brigadier General Joseph Schroedel, Commander of the U.S. Army Corps of 
Engineers South Pacific Division. I am honored to be testifying before 
your Committee today. I am testifying on behalf of Lieutenant General 
Carl Strock, Chief of Engineers. My testimony today will discuss 
current infrastructure conditions in the watershed of the Sacramento/
San Joaquin River system and the Corps' ongoing efforts to reduce the 
risk of flood damage to the system.

Background
    The impact of Hurricane Katrina in coastal areas along the Gulf of 
Mexico has focused renewed attention on the potential vulnerability of 
other regions, such as the Sacramento-San Joaquin Delta (``Delta''), if 
levees were to fail.
    The 1997 and 1998 floods forced more than 120,000 people from their 
homes in the Delta region. An estimated 30,000 residential and 2,000 
businesses were damaged or destroyed. Rehabilitation of the Federal 
levee system cost $160 million in Federal dollars and funded repairs on 
approximately 600 sites along the Sacramento and San Joaquin River 
systems.
    The recent levee break on Jones Tract in the south Delta cost 
nearly $100 million for emergency response, damage to private property, 
lost crops, levee repair and pumping water from the island. The State 
also bore significant costs associated with losses in water supply and 
conveyance. Delta pumping was curtailed for several days to prevent 
seawater intrusion and water shipments were possible only through 
unscheduled releases from other reservoirs, which sent more fresh water 
to the Delta for salinity control.

System Condition
    There are over 6,000 miles of levees in the Central Valley. Of that 
total, approximately 1,600 miles are authorized as Corps of Engineers 
Federal flood damage reduction projects. The others are local levees, 
which were constructed, enlarged and maintained over the last 130 years 
by local reclamation districts and private entities. In general, the 
owners of the lands within the levees financed the levee work by these 
districts. During the last 30 years, the State of California has 
provided supplemental financing for levee maintenance and emergency 
response.
    Since the mid-1980s, the Corps has evaluated almost 1,100 miles of 
the Federal levees. For example, the Corps found that within the 
Sacramento River Flood Control Project, approximately 90 miles of 
levees needed significant repairs and most of this rehabilitation work 
is now complete. However, these levee evaluations were performed using 
criteria which are now outdated, and, therefore, did not identify all 
potential levee deficiencies. The Corps has recently developed new 
levee seepage design criteria that will require much more stringent 
field exploration than was used in earlier levee performance studies. 
When the new criteria are applied, it is likely that more deficiencies 
that may require rehabilitation work will be identified.
    In major urbanized areas with large population centers, including 
Sacramento, Stockton, Yuba City, Marysville and Merced, the levees have 
been extensively evaluated and studies or projects are currently 
underway to improve levee performance. Much of the new development in 
these and other parts of the Central Valley is occurring in areas that 
until recently were agricultural areas. Typically, the levees in these 
areas were built 60 to 100 years ago with a view toward reducing the 
risk of flood damage to crops. Such levees are aging and may not 
reflect current flood damage reduction objectives.

Future Plans for Protection
    In September 2004, Congress passed the CALFED Bay-Delta 
Authorization Act (PL 108-361, Title I). CALFED is a unified multi-
agency approach to management of the Delta region in California.
    The Act authorizes up to $389 million for new and expanded CALFED 
authorities for 2005 to 2010 including studies, projects, and 
coordination regarding watershed planning; water conveyance, supply and 
quality; ecosystem restoration, levee system integrity, and other 
purposes. This authorization includes up to $90 million for efforts 
regarding levee system integrity, which would be headed by the Corps 
(USACE) as lead Federal agency in partnership with the State of 
California Departments of Water Resources and Fish and Game (DWR, DFG), 
local reclamation districts, and other concerned stakeholders. 
Additionally, the authorized funding includes amounts up to:
    <bullet>  $184 million for Conveyance Program activities (Bureau of 
Reclamation (BOR) lead, USACE as cooperating agency)
    <bullet>  $90 million for implementation of the Environmental Water 
Account (BOR lead with USFWS & NOAA Fisheries as cooperating Federal 
agencies)
    <bullet>  $25 million for oversight and coordination of the Program 
(BOR lead with USFWS, NOAA Fisheries, EPA, USACE as cooperating Federal 
agencies)
    For the Delta levees, the Corps will be working with the State of 
California to scope out both near-term and long-term solutions and 
develop a framework for setting priorities. If funds are appropriated, 
the Corps will prepare a report to Congress assessing the scope of the 
problem and identifying specific priorities for repair within the $90 
million authorized. This study will be a collaborative effort with 
CALFED partners and sponsors. This report will also provide details on 
the locations and lengths of those levees that are high priority for 
repairs.
    In the past, some local agencies have expressed concern about their 
ability to meet the 35% non-federal cost share requirements for Delta 
levee projects. However, the State of California recently indicated its 
readiness to work with local partners to provide funds for priority 
levee repairs. The Corps will work with the local sponsors to clarify 
the extent of such concerns in the report to Congress.
    The Corps is also currently the lead agency for several studies to 
help ways to reduce the risk of flood damage in the Delta, including 
water supplies, roads, cities and towns, agricultural lands, and 
natural habitat. These include the--
    <bullet>  Delta Islands Feasibility study, in partnership with the 
State of California, which will evaluate the entire Delta Islands and 
Levee System consistent with the Delta Risk Management Study authorized 
in the CALFED Act. Estimated cost $3 million; estimated time, 3 years.
    <bullet>  Lower San Joaquin River Feasibility Study, which will 
focus on the San Joaquin River in the South Delta--estimated cost $2 
million; estimated time 3 years.
    <bullet>  Development of the Levee System Integrity Program Plan, 
pursuant to the Record of Decision for the CALFED Bay-Delta Program to 
the Act, in which the Corps is participating with the State of 
California--Estimated cost $8 million; estimated time 4 years.
    The Corps participates in the CALFED activities. The Corps is 
represented at the California Bay-Delta Authority (CBDA), Bay-Delta 
Public Advisory Committee (BDPAC), and subcommittees to support and 
monitor refinement and execution of levee efforts.
    This concludes my statement. Again, I appreciate the opportunity to 
testify today. I would be pleased to answer any questions you may have.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, General. Mr. Rodgers, 
welcome to the Subcommittee. You may begin your testimony.

   STATEMENT OF KIRK RODGERS, REGIONAL DIRECTOR, MID-PACIFIC 
     REGION, BUREAU OF RECLAMATION, SACRAMENTO, CALIFORNIA

    Mr. Rodgers. Thank you, Mr. Chairman, and members of the 
Subcommittee. I appreciate the opportunity to appear before you 
today to discuss the current water supply vulnerabilities in 
California's Central Valley, and in the Sacramento/San Joaquin 
Delta.
    Today, my testimony will focus on the work and activities 
in the Delta, and on the risk faced in the context of levee 
failures. While our attention is understandably drawn to the 
levees, it is important to keep in mind that the long term 
reliability and security of water supplies can be heavily 
impacted by other problem areas that we need to address.
    Reclamation has no authority to implement levee work, nor 
do we have jurisdiction over levees in California, and 
therefore would defer certainly to the Corps and to the State 
to address those important issues.
    I would like to speak somewhat about future water supply 
projects, and in the context of that ecosystem restoration, 
water management strategies, and regulatory decisions that are 
being developed or implemented by reclamation, and the other 
CALFED agencies, and how those will help determine the future 
viability and certainty of the State and CVP water management 
infrastructure as a whole.
    The Delta is a prominent feature of California's 
complicated water supply system. Water conveyed through the 
Delta provides drinking water for two-thirds of the State. It 
supports the most productive agriculture region in the Nation, 
and conveys almost 50 percent, if not more, of Central Valley 
projects water delivery south of the Delta.
    The Delta channel assists in transporting water from 
upstream reservoirs to the south, where the CVP and the State 
Water Project lift those, and then move them. Given the current 
reliance on the Delta levees, one of the primary objectives of 
the CALFED program was to look at long term Delta stability.
    And I would like to skip over a couple of things here in 
the interest of time though, and just mention that because the 
Delta facilities are very fragile, and Cal-Fed looked very 
seriously during stage one of protecting those facilities, they 
kept alive the idea that if need be, we might have to look at 
an isolated facility.
    And I know that has been mentioned here today, and I just 
want to make sure that we don't lose sight of that. So stage 
one of the CALFED program addressed Delta efforts for the first 
seven years, and said if that doesn't work, then we are going 
to have to look at those facilities.
    I also want to mention that in addition to protecting the 
Delta infrastructure, I believe that additional storage is 
needed to meet the water supply and needs of a growing 
population, and to provide a much needed flexibility in the 
system to improve water quality and support fish and wildlife 
restoration efforts.
    Reclamation in partnership with California Department of 
Water Resources is investigating storage, as has been 
mentioned, and so we are in support of that, and need to look 
at that in the full context, I believe, of Delta protection.
    As was mentioned earlier, and some of the questions 
inferred, is the Delta alone, and we need to look at it in the 
scope of the total water management program, and upstream 
operations is part of that. So I think that reclamation needs 
to continue to work with the systems it has to provide the 
precise upstream operations also in support of the Delta.
    And we need to be looking hard at storage opportunities 
where we can as part of that overall package. I would be happy 
to answer any questions.
    [The prepared statement of Mr. Rodgers follows:]

       Statement of Kirk Rodgers, Mid-Pacific Regional Director, 
                         Bureau of Reclamation

Introduction
    Mr. Chairman, and members of the Subcommittee, I am Kirk Rodgers, 
Mid-Pacific Regional Director for the Bureau of Reclamation. I 
appreciate the opportunity to appear before you today to discuss the 
current water related infrastructure conditions in California's Central 
Valley and the challenges we face in protecting future water supply 
deliveries. My remarks are focused on the work and activities in the 
Sacramento/San Joaquin River Delta and on the risk faced in the context 
of levee failures.
    While our attention is understandably drawn to the levees, it is 
important to keep in mind that the long term reliability and security 
of water supplies can be heavily impacted by other problem areas being 
addressed by the CALFED Program. Future water supply projects, 
ecosystem projects, water management strategies, regulatory decisions, 
and planning processes currently being developed or implemented by 
Reclamation and the CALFED Program will determine the future 
reliability and certainty of the Central Valley Project and State Water 
Project's water management infrastructure as a whole.
    CALFED is a collaborative effort among 25 state and federal 
agencies to improve water supplies in California and the health of the 
Bay-Delta Watershed. In August 2000, the CALFED agencies signed a 
Record of Decision (ROD) that described a 30-year plan for implementing 
actions to resolve conflict in the Delta related to water supply, water 
quality, ecosystem quality, and levee stability. Public Law 108-361, 
signed in October 2004, authorized the federal CALFED agencies to 
implement the CALFED Program using the ROD as a general framework.

Importance of Bay-Delta
    The Delta is probably the most important feature of California's 
complicated water supply delivery system. Water pumped out of the Delta 
provides drinking water for two-thirds of the state, and supports the 
most productive agricultural region in the nation. The Delta's channels 
assist in transporting water from upstream reservoirs to the south 
Delta, where the Central Valley Project (CVP) and State Water Project 
(SWP) facilities can pump water into the California Aqueduct and CVP's 
Delta-Mendota Canal. The stability of the Delta levees that contain the 
water in these channels is paramount to protecting the Delta 
infrastructure along with ensuring a reliable supply of water to the 
Federal and State facilities. The Delta includes nearly 60 islands and 
tracts lying below sea level that are kept dry by levees whose 
construction does not meet modern standards, and which in some 
instances were built to protect crops from flooding. These levees were 
not built to provide as much protection from loss of life or property 
damage as they would be if built in accordance with today's 
construction standards and project purposes. We will defer to the Corps 
of Engineers and the State of California to more fully address the 
condition of the levees in the Sacramento/San Joaquin River system.

Delta Levees and the CALFED Bay-Delta Program
    Levee stability in the Delta is one of the four primary objectives 
of the CALFED Bay-Delta Program. The Preferred Program Alternative 
described in the ROD assumed that a through-Delta approach would 
continue to be the method of conveyance to south Delta project 
facilities for the first seven years of Program implementation (Stage 
1). The CALFED Agencies did not rule out the possibility in the future 
of constructing an isolated conveyance facility that would provide 
superior assurances of a reliable water supply south of the Delta, but 
because of timing of implementation it was not included in the Stage 1 
decision. Instead, the ROD focused on modifications within the current 
conveyance system in the Delta and a series of studies to determine if 
improved water supply and reliability, protection and improvement of 
Delta water quality, improvements in ecosystem health, and reduced risk 
of supply disruption due to catastrophic breaching of Delta levees 
could in fact be achieved with the current ``thru Delta'' means of 
conveyance. Other ways to convey water through the Delta include ``dual 
conveyance,'' which refers to the conveyance of water through the Delta 
as well as around the Delta via a pipeline or canal, or ``isolated 
conveyance,'' referring to the conveyance of a majority of the water 
around the Delta via a pipeline or canal. A determination on the 
adequacy of the existing configuration and the possible need to examine 
``dual conveyance'' or ``isolated conveyance'' facilities is to be made 
in the next two years.
    Currently, CALFED agencies are focusing on the overall risk of 
Delta levee failures and developing both short-term and long-term 
strategies for levee improvements. A current high priority activity is 
the Delta Risk Management Strategy (DRMS), which is being led by the 
Corps of Engineers and the California Department of Water Resources. 
Reclamation's role in DRMS has been limited to agency coordination and 
tracking of accomplishments and the integration of this activity into 
the broader CALFED program. The DRMS has the objective of evaluating 
ongoing and future risk of levee failure; identifying the probable 
consequences; and identifying levee maintenance and upgrades that are 
necessary and economically justified to reduce controllable risk. Data 
gained from this critically important study will help establish the 
priorities for near-term and long-term actions that will reduce the 
risk associated with catastrophic levee failure in the Delta.
    The goals for levee system integrity and improvement contained in 
the ROD were well founded when developed; however, the DRMS will 
reevaluate those goals to determine if they remain valid. The DRMS 
study is estimated to cost $6 million and is scheduled to be completed 
in 2007. In the interim while the DRMS study is being completed, the 
program will continue to implement levee maintenance, levee 
improvement, and other components of this ROD.

Reclamation's On-going Water Supply Improvement Activities
    In addition to efforts to protect the Delta infrastructure, 
expanding water storage capacity is among several integral components 
of the CALFED program. Additional storage is one way of meeting the 
needs of a growing population and, if strategically located, could 
provide additional flexibility in the system to improve water quality 
and support fish restoration efforts. One element of a reliable water 
supply is the ability to capture water during peak flows and during wet 
years, as well as more efficient water use through conservation and 
water reuse and recycling, advanced water treatment such as 
desalination, and non-traditional storage methods such as conjunctive 
use with groundwater; the flood control benefits of storage capacity 
are an inherent part of this. Reclamation, in partnership with the 
California Department of Water Resources, is investigating the 
feasibility of expanded surface storage capacity at existing reservoirs 
and strategically located off-stream sites identified in the ROD. Four 
surface storage feasibility studies are currently in progress, all of 
which are to be completed between 2008 and 2009. Storage projects are 
not being developed in isolation but rather as part of an overall water 
management strategy. As such, storage combined with other program 
actions such as conservation, transfers and habitat restoration could 
contribute to and be compatible with the water supply reliability, 
water quality and ecosystem restoration program objectives.

Conclusion
    Protection of the Bay-Delta is of critical importance to 
California. Much more needs to be accomplished to ensure the long-term 
sustainability and reliability of California's water supply. Major 
decisions will need to be made in the near future regarding the 
protection of the Delta's critical infrastructure and the many 
integrated elements of the CALFED program, including the potential 
construction of new surface storage facilities, that will shape 
California's water management system into the future. We believe that 
these challenges will be best addressed through the CALFED Program. 
That concludes my testimony. Mr. Chairman, I would like to reiterate my 
appreciation to the sub-committee and others for continuing to work 
with the Administration to address these significant water issues 
facing California. I would be happy to answer any questions.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Rodgers. I will start off 
the questioning. Storage was brought up, and you brought up 
storage, and actually it was brought up earlier in the hearing 
as well. Where are you in relation to completing the storage 
studies in CALFED? You know, the four main projects. But where 
are you on those?
    Mr. Rodgers. As was mentioned, there are four main projects 
that we are doing feasibility studies on, and it is the Upper 
San Joaquin, the Shasta enlargement, the Sites Reservoir, and 
the Los Vocaros enlargement.
    Mr. Radanovich. Do you have target dates for when those 
will be completed?
    Mr. Rodgers. Between the years of 2008 and 2009 is when 
those feasibility studies will be completed.
    Mr. Radanovich. OK. Thank you. Also in your testimony, you 
mentioned that for the next two years that you will be making a 
determination on the adequacy of existing conveyances through 
the Delta, and the possible need to examine dual conveyance or 
isolated conveyance facilities.
    I know that you talked a little bit about it, but what are 
your plans, including a time line, for completing that 
determination as well?
    Mr. Rodgers. Well, we are working in cooperation with the 
State Department of Water Resources in looking at those issues. 
As you are aware, AB 1200 was passed, and the assignment came 
to the State to take a hard look at the vulnerabilities in the 
Delta. And we are jointly working together with the State on 
those issues.
    Mr. Radanovich. Thank you. The modifications to Folsom Dam 
would provide Sacramento with protection for about a 200 year 
flood, which is relatively modest when compared to other large 
United States cities that have a 400 to 500 year protection. 
What would it require to bring that level of protection to 
Sacramento and the San Joaquin Valley?
    Mr. Rodgers. From 200 to 400 year flood protection?
    Mr. Radanovich. Yes. Hint, Auburn Dam.
    Mr. Rodgers. Let me say that----
    Mr. Radanovich. Instream water facility.
    Mr. Rodgers. In looking at the 200 year feature, we would 
be making modifications to the dam and to the spillway 
structure itself, and I think given the range of alternatives 
that we have looked at there, we would just about exhaust the 
flood protection capability of that structure with those 
additional features.
    Mr. Radanovich. Making that a more than 200 year feature?
    Mr. Rodgers. No, I think it would be about 200, and so I 
say that as a preface to your question. We would have to look 
to other features to gain additional flood protection for the 
Sacramento area.
    Mr. Radanovich. Do you have in your mind what the 
completion of the Auburn Dam and the water behind it, would 
that get you up to a 400 or 500 year feature? Specifically that 
one flood protection feature?
    Mr. Rodgers. There were studies that were performed that 
showed various sizes of Auburn dam, from small ones for flood 
control only, up to a very sizable system, up to the 2.3 
million acre feet range, all of which would increase 
substantially the flood protection for Sacramento, although I 
don't have any updated or current details as to that.
    Mr. Radanovich. All right. Thank you, Mr. Rodgers. General 
Schroedel, Mr. Herger mentioned earlier that the Corps found a 
six foot cave hole behind a Elderberry Bush on the Sacramento 
River, and I am wondering how long it took to fix that cave 
hole, if you are familiar with that.
    Brigadier General Schroedel. Sir, I am somewhat familiar 
with that. The hole was discovered as I understand it after one 
of the floods of either 1986 or 1997. I am not sure exactly 
which one, but after one of the floods, and when we were asked 
to go in and do a study to determine why the floods, and why 
some of the levee failed, we noted a fairly good size hole that 
was mentioned by Congressman Herger behind some vegetation that 
had been missed.
    But the point that I would like to bring out there if I 
can, Mr. Chairman, is that the studies that we did after those 
floods were pretty much as I just characterized them. 
Basically, trying to identify from visual inspection the kinds 
of potential failure sites that we could identify.
    We then went after and fixed those. Some people, I think, 
might believe that there was extensive drilling, boring, and 
those kinds of internal studies that were done to determine the 
stability of the levees, and that was not the case.
    With respect to the environmental aspects, which I think 
was one of the points brought out, those do present some 
challenges in some respects, with respect to some techniques 
that we can use to stabilize the slopes of existing levees, and 
some of those issues probably do need to be addressed.
    Mr. Radanovich. I am assuming the cave hole is fixed now?
    Brigadier General Schroedel. Sir, it is still not fixed.
    Mr. Radanovich. It is still not fixed? What is precluding 
you from going in and fixing it now?
    Brigadier General Schroedel. Sir, I don't know the exact 
status. I can find that out for you, but I can tell you that as 
we pursue those kinds of repairs, and where we have 
environmental challenges, generally mitigation issues are the 
kinds of issues that cause us some delays. So I could get the 
specifics back to you for the record.
    Mr. Radanovich. If you can, give me a description of what 
is taking so long to get it fixed, and an idea of the 
mitigation measures being asked for in that fix.
    Brigadier General Schroedel. Yes, sir, we will do that.
    Mr. Radanovich. Thank you. Also, General, the Delta levee 
study, when the Corps conducts this study, will it use existing 
studies as well, or are you to start from scratch?
    Brigadier General Schroedel. Yes, sir. I think, first of 
all, that that study is very important, and I would strongly 
recommend that we fund it. One, to at least get a short term 
effort to support the collaborative efforts that are ongoing to 
help identify the priorities that I mentioned at the beginning.
    But I would also caution that in a six month period, again, 
that would not include extensive subterranean investigations or 
whatever. It would have to rely I think in large measure on the 
studies that we have already done, and not just the Corps, but 
any existing studies, any existing thought that is out there.
    The best science and best engineering that we could bring 
to bear to at least try to frame the problem, and help us 
establish the priorities for the near term, and then I think to 
address the strategic direction that we take, which was 
discussed earlier, and which I personally support, would take 
something beyond, much beyond, a six month study.
    But at least to get us all in the same direction, which I 
think in many ways we are, but to help reinforce that and help 
us identify what the near term needs are, that six month report 
would absolutely be something that would be important to do. 
And it would rely on existing material.
    Mr. Radanovich. Very good. Thank you, General. Mrs. 
Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair. Mr. Rodgers, for the 
surface storage projects now being studied, what is the 
estimated water yield that each project might yield? Any idea, 
any ball park idea?
    Mr. Rodgers. I would only be hazarding a guess, Mrs. 
Napolitano. I can get that for you for the record.
    Mrs. Napolitano. I would appreciate it, because this is 
something that is very controversial, or not controversial, but 
is in question as to one versus the other, and the amount of 
yield that each one would produce. Then we can look at the 
cost.
    The second question would be has the total amount of the 
water from the Delta increased in recent years? And then can 
you tell us what the total delta exports have been for the past 
six years?
    Mr. Rodgers. I can answer the first question. That, yes, 
the Delta exports have increased. But I would like to add a 
clarifying component to that if I may, because I think 
sometimes that component by itself can be a distortion. That in 
addition, for instance, this year, in addition to us increasing 
our pumping south of the Delta to higher amounts than we have 
done in recent years, we have also seen an incrementally larger 
amount of water going out under the San Francisco--out through 
the Bay and out into the ocean.
    So if you look at the radios of how much is pumped, versus 
how much goes on out to the ocean, you find that it is not just 
disproportional in that regard at all. And I think that one 
needs to keep that in perspective.
    Mrs. Napolitano. I am glad that you clarified that. One of 
the things that we would like to have is any numbers that you 
might have that would clarify for future committee questions in 
regard to that particular issue which is contentious.
    Mr. Rodgers. The total amount of pumping? Now, in asking 
that question, so that I can make sure that I am responsive, do 
you want to know the total for both the State and the Federal 
project?
    Mrs. Napolitano. Correct. Yes, as well as the water going 
into the San Francisco Bay.
    Mr. Rodgers. OK. If I may be so bold, and if I could add 
another commentary. I want to indicate to you that we are not 
the only removers of water from the Delta. There are a lot of 
other diverters out there, too, and so that would need to be 
taken into account.
    Mrs. Napolitano. Understood.
    Mr. Rodgers. Thank you.
    Mrs. Napolitano. How much water has been made available for 
the Fish and Wildlife under the ROD?
    Mr. Rodgers. Are you speaking in terms of like the 
environment water account, or--I mean, there are lots of water 
made available to Fish and Wildlife, in addition to the 
regulatory flows that we put in the river.
    As the Bureau of Reclamation put 800,000 acre feet of our 
yield, called the B-2 water, and to make that available, and we 
also have acquired water under the Environmental Water Account.
    So the combination of all of those is a fairly large 
number, and I just don't have the exact numbers for you. Do you 
want them by year or for a series of years?
    Mrs. Napolitano. Yes. It would help to be able to 
understand, because there is questionable amounts of water that 
they are stating is not helping some of the fish population. So 
it would be helpful in clarifying that.
    Mr. Rodgers. We can provide you the numbers that would 
quantify together how much water is being provided for the fish 
according to our records. If I again could be so bold, I would 
suggest that we are not really sure what the connection is 
between why the fish are having a problem and we are not 
necessarily correlating the volume of water to the fish problem 
either.
    So I would say that we would use caution with those numbers 
for that purpose.
    Mrs. Napolitano. That is fine. We understand that there are 
some things that do affect the water delivery to Fish and 
Wildlife for the use of fish. And I will ask one of General 
Schroedel. How is the physical condition of the levee system 
monitored? In other words, how do you inspect it? How do you 
determine that it is failing, or that it needs prioritizing in 
working on it?
    What is needed to improve the monitoring, and how can that 
be accomplished, as well as who is responsible for the 
monitoring of the condition of the non-Federal levees, which 
also then is there any monitoring in real time?
    Is there a centralized monitoring effort planned or needed? 
Is there one in place, and not just for the saline level 
levees?
    Brigadier General Schroedel. Thank you, Ma'am. That is a 
good question. First of all, the first part of the question, I 
believe, is who is responsible for the inspection and 
monitoring, and the inspection and monitoring even of the 
Federal levee is the responsibility of the State and local 
authorities, and not the Corps. So once we complete the 
projects, even the Federal projects, those responsibilities are 
handed off.
    In terms of the monitoring, I frankly think that a much 
more robust and centralized system of monitoring may be in 
need, but again, I would underscore the fact that I don't think 
that anyone can really say what the condition of those levees 
are.
    We should be reminded that those are not engineered levees 
for the most part, other than the Federal levees. The vast 
majority of the 6,000 miles of levees are non-Federal. We have 
learned first after the flood of 1986, we attempted to make 
some repairs using shallow slurry walls, building up the toes 
of the slopes to stabilize the levees. Then we learned after 
the flood of 1997 that under-seepage was the problem, and we 
had to deepen our slurry walls. So it has been more of a trial 
and error learn by experience, experience, that I think we have 
had, as opposed to an active monitoring and proactive 
prevention program.
    And I think that there are a lot of other solutions short 
of rebuilding the entire system, which is not feasible. There 
may be other--and this gets back to the strategy. There may be 
other solutions; taking some of them out of action, taking 
islands out of action perhaps. I don't know.
    Others might be setback levees, which in some cases have 
been built. Then those are engineered, and then we know that 
those will protect lives that we place behind them. So I think 
that the issue is much larger, but in direct answer to your 
question, the Corps does not maintain those responsibilities, 
and in fact I think there should be something done about it.
    Mrs. Napolitano. And who should be the party who would be--
you are laughing--should be at least at the forefront, or the 
designated hitter if you will?
    Brigadier General Schroedel. Well, I think the first 
question would be what are the standards, and once we establish 
the appropriate standards, whether they are PL84-99 standards, 
or Federal standards, and those are not the same.
    First and foremost, we should establish a common standard 
to which we would build any levee in this country. Second, I 
think in collaboration, as we determine a strategy, we should 
also determine who is the appropriate lead for whatever we are 
going to put our resources into, and that is a major issue that 
is coming out of Katrina.
    I was down as a part of JTF Rita, and I can tell you that 
is a huge central issue, not only to our response, but also to 
our prevention, and that is what is the appropriate Federal 
role, and what is the appropriate State and local role, which 
as you know is addressed in the beneficiary pays issue within 
the CALFED process.
    So I think it is a very large issue which we are ready to 
actively participate in, and help get the answers to, and then 
once given the authority and the resources, to give the 
American people the best quality for their money.
    Mrs. Napolitano. Thank you very much, gentlemen. You were 
very, very good. I appreciate it. Thank you.
    Mr. Radanovich. Thank you, Mrs. Napolitano. Mr. Cardoza.
    Mr. Cardoza. Thank you, Mr. Chairman. I want to start where 
Mrs. Napolitano left off, and say, General, that I appreciate 
your frankness, and your insight. I think you are absolutely 
right, and I hope, Mr. Chairman, that this committee can sort 
of inspire the suggestions that the General made, and work on 
the suggestions that the General just made, because I think 
they are absolutely critical.
    We have to have standards, and certainly if you take New 
Orleans, for example, building to a Category 3 standard was not 
a smart move. We needed to have the worst case scenario, 
because we know eventually that the worst case will happen.
    And the same thing is going to happen in the California 
Delta. We know that is going to happen, and it is a question of 
when and not if. And we have to develop those standards, and 
thank you for your frankness.
    I want to also thank you and recognize that you brought 
with you today a very talented individual in Mark Charlton, who 
I will tell you--and this is going to embarrass him, but I wish 
frankly more Federal officials acted the way he does, where 
when you ask him a tough question, he gives you a straight 
answer.
    I find that so rare in Washington that I wanted to 
recognize him for it, because to work with him has been really 
special. You mentioned two studies. You mentioned a six month 
study and then a longer study. How much do you think the six 
month study would cost?
    Brigadier General Schroedel. Sir, right now the study is 
budgeted for $500,000, and at this point, we think that could 
be done for that amount. A longer study, I couldn't give you a 
good answer today, but I would be willing to give you an 
estimate in response.
    Mr. Cardoza. I would really like that, and I would also 
like how long the longer study would take, and what might be 
the scope of the work done in it, because it is something that 
we need to look at as a committee, and try and decide on that.
    And finally, I would like to ask you one last thing, and 
that is the Corps of Engineers is one of the critical 
components when we look at this inoperability question that I 
have talked about, and frankly, local government isn't going to 
have the tools to be able to marshal the resources. We are 
going to call the military.
    And it is a question of direction, and command and control, 
and all of those things that you do very well, but during the 
crises in the past, local officials have told me that they 
can't communicate with you folks. Even worse, they can't 
communicate among themselves.
    So it is absolutely critical that your organization be 
brought in to this process as well.
    Brigadier General Schroedel. Sir, if I could respond to 
that. We are intimately involved at this point in the disaster 
response training preparedness. Again, standards are key, and 
common equipment is key, but if I could add one thought that I 
think is something worth thinking about with respect to the 
comments that you have made today.
    And this is something that I learned again as a part of JTF 
Rita. Right now most of our planning is based on capabilities. 
So if I can use this example. Within those capabilities, we say 
we want the State, the Federal, the local, city, to have the 
capability to stand up an emergency operations center. That is 
a capability.
    Well, let us think about what happens once the catastrophe 
hits. Some of those capabilities get wiped out and they are 
gone.
    Mr. Cardoza. That is right.
    Brigadier General Schroedel. So what I would recommend and 
suggest, strongly suggest, is that in our planning--and we are 
pushing hard within the Corps and within the teams that we are 
working with, we really need to think about effects base 
planning. What is the effect that we are looking for with 
respect to communication and emergency operations centers. What 
we are looking for is that all the right people have the right 
common operating picture of what the situation is so they can 
respond. If you don't know what the situation is, you don't 
know what the operating picture is, and you can't respond.
    Communication is key to that, but if we think in an effects 
based manner, as opposed to a capability based manner, it 
certainly I think helps us think through the problem to the 
right level, and I would just like to take the opportunity to 
emphasize that point; a very major lesson that I think we have 
learned again in the disaster response context, but something 
that we build our tactical plans around all the time. Effects, 
not capability.
    Mr. Cardoza. If I could just follow up for a moment, Mr. 
Chair. I think it is important, especially from our area. Our 
chiefs, when they were in to see me--and let me share this with 
you as well--told me that the number of refugees that they 
anticipate hitting the Modesto area or the Stanislaus County 
area to be in the hundred-thousands if in fact we have the 
earthquake, Delta flood scenario take place.
    And I respect Mr. Chrisman, who was here earlier, and 
testified earlier, and I didn't challenge him on it because it 
is not really his area, but the thought that we are handing out 
radios is so totally inadequate to dealing with that kind of 
crisis that it was almost embarrassing that we are still at 
that level.
    And we really do need to have some kind of other mechanism, 
and we need to have a discussion about it, whether it be here 
in this committee, or in another venue in Congress. But somehow 
we from the valley should start raising the issue, and it is 
not just our area, and I am sure in Grace's area that it is the 
same way, and other places around the State.
    But it really is a total lack of preparation on our part so 
far, and we can't let this happen again. Thank you.
    Mr. Radanovich. Thank you, Mr. Cardoza. I do have one last 
question for Mr. Rodgers. As you are looking at the temperance 
flat water storage project, and you are assessing it, I am 
wondering if the scope of that project includes assessing the 
impacts on the current hydropower generation that is operating 
in that area?
    Mr. Rodgers. Yes.
    Mr. Radanovich. And I want to make sure that if you are 
not, that you are, and also if those private facilities were 
affected by the various options that I know are available in 
that project, that you would have recommendations on how to 
resolve the impacts to those hydro facilities.
    Mr. Rodgers. Yes. Thank you for that question. In a recent 
review that I went through on that project with my staff, we 
did have that discussion. They have assured me that we 
recognize in the various alternatives that we are considering 
for that project that existing hydro facilities could be 
impacted if certain of those alternatives were adopted.
    And that mitigation or addressing the issue of those 
effects is a part of and would be disclosed in the study in the 
report.
    Mr. Radanovich. Thank you, sir. Any other questions of this 
panel? If not, I want to thank you very much for being here. 
Your testimony was very valuable, and with that, it concludes 
this hearing.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]

    [The following statement was submitted for the record by 
Mr. Herger:]

 Statement of The Honorable Wally Herger, a Representative in Congress 
                      from the State of California

    I applaud Chairman Pombo and Chairman Radanovich for holding 
today's hearing, and also for the ongoing leadership they have 
demonstrated on the water supply and flood control issues important to 
California and the greater western United States.
    These two issues--water supply and flood control--are inextricably 
linked. This is especially true in my home State of California. 
Upstream reservoirs, such as Lake Shasta and Lake Oroville in 
California's second congressional district, the area which I represent, 
are the centerpieces of the state's two major water supply projects, 
but they also, working in tandem with the Central Valley's system of 
levees, weirs, and bypasses, provide critical flood protection for 
millions of Californians who live downstream.
    When contemplating or addressing its water supply vulnerability, 
the state cannot, nor should not, simply choose to maintain or invest 
in small local or regional levee projects, without strongly pursuing 
further development of water detention facilities in upstream areas. 
Indeed, the multi-million dollar public investment that is required to 
bring California's levee system up to contemporary standards would be 
for naught without such a commitment to upstream storage and flood 
control projects. Impoundment facilities on the major river tributaries 
north of the Delta, such as the North Fork of the American River, would 
allow winter and springtime runoff to be held back and then metered out 
over a period of months, keeping the levee system intact and providing 
the state with a new source of high quality water and affordable 
hydroelectricity. Though levees are an important part of keeping 
people, property, and vital infrastructure safe and functional, they do 
not, by themselves, provide the answer to shoring up California's water 
supply vulnerabilities.
    In addition, any public investment in levees must be made in tandem 
with a responsible review and modification of the lengthy and costly 
environmental review process that accompanies much of the maintenance 
of this infrastructure. Recently, under the leadership of Chairmen 
Pombo and Radanovich, the House passed the Threatened and Endangered 
Species Recovery Act in order to improve the 1973 Endangered Species 
Act (ESA). This legislation contains a common sense and long overdue 
provision that will require new regulations to cut some of the 
environmental red tape that flood protection districts face when trying 
to make urgent and targeted levee repairs.
    My district suffered a terrible tragedy when a levee repair project 
was delayed for nearly seven years because of the endangered Elderberry 
beetle, despite an Army Corps of Engineers prediction that a ``loss of 
human life'' would occur unless repairs were made. Yet, repairs were 
not made because of the inflexibility of the ESA, and three of my 
constituents lost their lives in the January 1997 flood. One victim was 
a decorated veteran of World War II; a second victim was the wife of 
the manager of the levee district that had been prevented from doing 
the timely repair work.
    It's my hope that the provision in Chairman Pombo's ESA reform 
legislation, as well as today's timely hearing on the relationship 
between natural disaster and water supply vulnerability, will prevent 
future tragedies like the one that occurred in my district, or recently 
in Louisiana and Mississippi, from befalling California's Central 
Valley, and will play an important role in ensuring that the state is 
able to maintain its levee and water supply system.

                                 <all>

</pre></body></html>
